<html>
<title> - NOMINATION OF DR. DAVID WEIL TO SERVE AS ADMINISTRATOR OF THE WAGE AND HOUR DIVISION, DEPARTMENT OF LABOR</title>
<body><pre>[Senate Hearing 113-822]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-822

NOMINATION OF DR. DAVID WEIL TO SERVE AS ADMINISTRATOR OF THE WAGE AND 
                   HOUR DIVISION, DEPARTMENT OF LABOR

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

NOMINATION OF DR. DAVID WEIL TO SERVE AS ADMINISTRATOR OF THE WAGE AND 
                   HOUR DIVISION, DEPARTMENT OF LABOR

                               __________

                           DECEMBER 10, 2013

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                     U.S. GOVERNMENT PUBLISHING OFFICE
22-278 PDF                  WASHINGTON : 2016                     
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c1a6b1ae81a2b4b2b5a9a4adb1efa2aeacef">[email&#160;protected]</a>  






          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland		LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington		MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont		RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania	JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina		RAND PAUL, Kentucky
AL FRANKEN, Minnesota			ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado		PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island	LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin		MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut	TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts

                                                                      

                    Pamela J. Smith, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)


                                CONTENTS

                               __________

                               STATEMENTS

                       TUESDAY, DECEMBER 10, 2013

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     3
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.    11

                                Witness

Weil, David, Ph.D., Belmont, MA..................................     4
    Prepared statement...........................................     6

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Bennet...............................................    13
    Letters from Mr. Weil's Academic Peers--Past and Present 
      Deans......................................................    14
    Response by David Weil to questions of:
        Senator Harkin...........................................    19
        Senator Alexander........................................    19
        Senator Baldwin..........................................    29
        Senator Franken..........................................    30
        Senator Isakson..........................................    31
        Senator Murkowski........................................    32

                                 (iii)

  

 
NOMINATION OF DR. DAVID WEIL TO SERVE AS ADMINISTRATOR OF THE WAGE AND 
                   HOUR DIVISION, DEPARTMENT OF LABOR

                              ----------                              


                       TUESDAY, DECEMBER 10, 2013

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Alexander, Franken, Baldwin, 
Murphy, Warren, and Scott.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order. We're going to have a 
hearing this morning on the nominee to administer the Wage and 
Hour Division at the Department of Labor.
    I'll now turn to Senator Warren for purposes of an 
introduction.

                      Statement of Senator Warren

    Senator Warren. Thank you very much, Mr. Chairman. It is my 
great pleasure to introduce Dr. David Weil, who has strong 
Massachusetts ties, having taught at Boston University School 
of Management for the past two decades, after having received 
his master's and Ph.D. from Harvard. He currently serves as the 
co-director of the Transparency Policy Project at Harvard's JFK 
School of Government and as the lead technical advisor for a 
State-funded research study on the underground economy.
    He is well known for his expertise in these issues, not 
only in Massachusetts, but also nationally, having written 
extensively on topics related to the Wage and Hour Division's 
responsibilities. There are few, if any, more knowledgeable or 
more qualified people that the President could have nominated 
for this position, and I look forward to his speedy 
confirmation.
    Dr. Weil, we're very pleased to have you here today to 
share your testimony.
    The Chairman. Thank you very much, Senator Warren.
    We again welcome Dr. Weil as the nominee to administer the 
Wage and Hour Division at the Department of Labor. This 
Division oversees some of the most fundamental protections for 
American workers. It ensures that people are paid fairly in 
accordance with our minimum wage and overtime laws. It protects 
vulnerable children when our child labor laws are abused. It 
ensures that workers can spend time with their families when a 
new baby is born or a health crisis is looming. In short, this 
relatively unknown agency plays a huge role in how Americans 
experience their day-to-day working lives.
    However, despite this important mission, this critical 
agency was unfortunately allowed to atrophy during the past 
Administration. The agency took a backseat approach that relied 
almost exclusively on complaint-driven enforcement, relying on 
the questionable assumption that vulnerable workers know their 
rights and will approach the agency to report violations of the 
law rather than taking a more proactive approach to educate 
workers and seek out industries and populations where abuses 
are likely to happen.
    The current Administration has corrected these problems and 
beefed up enforcement, revitalizing this essential agency. This 
is in large part due to the comprehensive guidance provided by 
the expert sitting before us today, Dr. Weil, as well as the 
dedication of the career staff in the Division.
    The Department of Labor has long looked to Dr. Weil for 
expert advice, and he has answered their call. While he has 
never worked directly for the agency, he is intimately familiar 
with its structure and mission, as well as the challenges it 
faces.
    As has been said, he has studied and written extensively on 
the most effective ways to use limited resources to most 
effectively increase compliance with critical workplace 
protections. He has spearheaded new ways of thinking, 
enforcement, and investigations that will have the greatest 
impact and most sustainable, long-lasting results. In a time of 
increasingly tight budgets, this sort of innovative thinking 
will be a tremendous asset to the agency.
    A group of Dr. Weil's peers, respected academics at a 
variety of universities, have strongly endorsed his nomination 
and have only the highest praise for him. I ask unanimous 
consent to include the text of these letters in the record.
    [The information referred to may be found in additional 
material.]
    The Chairman. Dr. Weil brings unique perspective to all of 
these issues. Again, he has a wealth of experience in 
collaborating with many groups, often playing a role of 
mediator and advisor, skills that will be extremely appropriate 
to a role leading the Wage and Hour Division.
    Dr. Weil has received strong recommendations of his 
professionalism and fair-mindedness from past and current Deans 
of his business school, former colleagues and partners on a 
variety of projects who represent both management and labor. I 
ask unanimous consent to include the text of these letters in 
the record.
    [The information referred to may be found in additional 
material.]
    The Chairman. It is clear that Dr. Weil is an exemplary 
candidate to administer the Wage and Hour Division. It is 
unfortunate that this division has been without a Senate-
confirmed leader for many years now. I join with Senator Warren 
in hoping that we can, together, expeditiously move Dr. Weil's 
nomination following today's hearing. It is a critical agency, 
responsible for protecting our Nation's tens of millions of 
workers.
    Dr. Weil, I look forward to hearing more about your 
background and experience and your plans for the Wage and Hour 
Division.
    With that, I will yield to Senator Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman.
    Welcome, Dr. Weil.
    We look forward to considering the nomination of Dr. Weil. 
As the chairman said, this is an important agency which 
oversees the enforcement of more than a dozen major laws which 
govern just about every private sector employment relationship 
in the United States. If confirmed, he'll be charged with 
supervising the work of over 1,800 employees in 54 field 
offices covering all of our States and territories.
    My understanding is that Dr. Weil has never supervised more 
than 15 or 20 people, and that was in an academic research 
setting. I want to talk a little bit about his management 
skills and his plans in that way. As the committee of 
jurisdiction for the Wage and Hour Division of the Department 
of Labor, we want to make sure that anyone confirmed to lead 
this division has appropriate management and practical 
experience. I may have some written questions to explore that.
    I also have some questions about Dr. Weil's views on 
enforcing current law, which I hope he will answer thoroughly. 
I'm concerned about an agenda that aims to stretch the law to 
redefine what constitutes an employer and an employee in order 
to reach beyond a franchisee owner and penalize larger 
corporations.
    The franchising industry has been an incredible engine of 
economic growth in our country. According to the International 
Franchise Association, it has created hundreds of thousands of 
successful small businesses employing over 8 million 
individuals. Many of these businesses are owned by people who 
started on the bottom rung of the economic ladder, making 
minimum wage, and working their way all the way up to the top. 
Many of them are owned by women and minorities. For so many 
people, franchising has been the path to the American Dream.
    I think of my friend, Sandy Beall, who dropped out of 
college at the University of Tennessee about 40 years ago and 
went to work in a Pizza Hut. Then he founded his first Ruby 
Tuesday, and pretty soon he had a company with 800 Ruby 
Tuesdays when he retired a couple of years ago.
    A nominee with a singular focus on inappropriately 
stretching current law to throw a big wet blanket on that dream 
is not one that would have my support. Nor could I support an 
enforcement strategy that focuses on preconceived targets set 
in Washington rather than being responsive to complaints of 
breaches of the law or a strategy that has the underlying goal 
of increasing unionization without regard to the desires of 
employees themselves. There is some serious concern here that 
needs to be reviewed before the nominee is put in charge of the 
agency.
    It's worth noting that this position has been without a 
confirmed administrator for the entirety of the current 
Administration. I want to point out that this can't be blamed 
on Republican delays or use of the filibuster. The President 
has nominated two other individuals to the position, both of 
whom voluntarily withdrew before any HELP Committee votes were 
scheduled. The last nominee withdrew his nomination of August 
2011, a full 28 months ago.
    I would point out to my Democratic friends that if the 
nominee is reported to the full committee, and even if there 
were to be an objection, the only debate on the nominee under 
the changes of rules that we made 6 months ago, since it's a 
subcabinet nominee, would be for 8 hours or 4 hours, if 
Democrats gave that time back, so the Democratic leader could 
bring the nominee to the floor, even if it were objected to on 
a Thursday--make Friday the intervening day, and it could be 
voted on a Monday.
    There's really no opportunity for delay on the part of the 
minority in this case. In the history of President Obama's 
administration only two subcabinet nominees have been denied 
their seats by a filibuster. I hope the chairman will give this 
committee the time to fully conduct our constitutionally 
required vetting.
    I thank the chair.
    The Chairman. Thank you, Senator Alexander.
    I'm asking members to submit any written questions for the 
nominee by tomorrow, Wednesday, by 5 p.m. We'll be holding an 
executive session next week on December 18th. I ask Senators 
and their staffs, who may be here, to include that on your 
schedule for December 18th to consider this nomination among 
some other items that we have.
    Dr. Weil, welcome. We have your complete statement. It will 
be made a part of the record in its entirety. If you could, 
please sum up in just a few minutes, because I'm told we have 
four votes starting at 10:15. I'd like to wrap this up so we 
won't have to come back. So, please, if you could wrap up in 
about 5 minutes, I'd sure appreciate it.

          STATEMENT OF DAVID WEIL, Ph.D., BELMONT, MA

    Mr. Weil. Thank you, Chairman Harkin and Ranking Member 
Alexander and distinguished members of the committee, for the 
opportunity to appear before you today as you consider my 
nomination to serve as the U.S. Wage and Hour Administrator.
    I am deeply grateful to President Barack Obama for 
nominating me to the position of Wage and Hour Administrator 
and to Secretary Thomas Perez for the confidence he has shown 
me in supporting my nomination. I want to thank Senator Warren 
for her very kind introduction this morning. I also wish to 
acknowledge and thank my wife, Miriam; sisters, Carla and Lisa 
Weil; cousins, Greg Schetina and Amy Shapiro; and my good 
friend, Mayor Tony Williams, who have joined me today.
    I am humbled by the opportunity, if confirmed, to serve my 
country as Wage and Hour Administrator. The laws that the Wage 
and Hour Division oversee, including the Fair Labor Standards 
Act, which celebrates its 75th anniversary this year, are key 
to ensuring that men and women earn a fair day's pay for a fair 
day's work, and that businesses who abide by the law can 
compete on a level playing field. These principles are not only 
rooted in our workplace laws, but reflect a basic concept of 
justice that underlies our labor market and economy.
    I sit here today in large part because of the ability of my 
parents and grandparents to earn a fair day's pay for a fair 
day's work. My mother's parents came to the United States at 
the turn of the last century. Like thousands of other 
immigrants, my grandparents toiled for years in the garment 
industry in order to save enough to start a small business to 
support family members and educate their children.
    My father and his family fled Nazi Germany and arrived in 
the United States in 1939 with few resources but a desire to 
build a new life in this country. My father has often recounted 
to me the many jobs he held as a young man, whether stocking 
goods in a grocery store, selling shoes, delivering mail, or 
working on a truck assembly line. He was able to earn enough to 
support his family, go to college, and eventually attend 
medical school, providing a solid foundation for his children.
    Growing up in a small town in northeastern Colorado, I had 
many classmates whose families were similarly seeking to follow 
that pathway, whether sons and daughters of farmers, farm 
workers, workers in the local meat packing industry, or the 
children of small business owners. Some of those families were 
successful in building an economic foundation for their 
children, as my parents had been able to do for my sisters and 
me. But other families were not so fortunate, and these 
experiences gave me a deep appreciation of the opportunity that 
had been afforded to me and my family and an abiding interest 
in the workplace.
    Beginning with my doctoral work at Harvard University and 
continuing over the course of my academic career, I have 
pioneered research regarding how industry structure and market 
forces affect business decisions regarding the workplace. As a 
Boston University Business School professor for over 20 years, 
I bring a unique perspective to these public policy questions, 
rooting my work on government policy in an understanding of how 
businesses make decisions in competitive environments.
    On the basis of my expertise, I've advised both Democratic 
and Republican administrations in the United States at the 
Federal and State levels and policymakers in other countries on 
designing and implementing public policies for the workplace, 
particularly in the area of labor standards. If confirmed, I 
would work tirelessly as Wage and Hour Administrator to assure 
that men and women receive the compensation they are entitled 
to from their work, and that the ideals embodied in labor 
standards legislation are carried out in practice.
    Let me briefly describe the principles that would guide me 
in pursuit of that goal. In my view, a fundamental role of the 
Wage and Hour Administrator is making sure that the laws 
entrusted to the agency are administered efficiently, fairly, 
transparently, and rigorously. Let me briefly describe these 
principles.
    The Wage and Hour Division, like all organizations, has 
limited resources with which to pursue its objectives of 
ensuring compliance across millions of workplaces spread 
throughout the United States. In order to efficiently respond 
to this, it needs to set priorities.
    Efficiency also requires the Wage and Hour Division to use 
the range of tools available to it effectively. For example, 
noncompliance may arise in some instances from confusion about 
regulatory requirements. In those cases, education and outreach 
is the most appropriate tool. Where noncompliance may arise 
from intentional and more egregious causes and intentions to 
evade legal requirements, those cases may require stronger 
tools of enforcement, particularly where businesses gain 
competitive advantage by not complying with the law.
    This relates to a second principle of fairness. It is 
important to ensure that those businesses that comply with the 
law and exceed its requirements are not put at a competitive 
disadvantage because of their responsible actions. At the same 
time, one must be equally vigilant that businesses that flout 
the law do not benefit from that behavior. This fairness 
principle requires administering labor standards laws in a way 
that creates the right incentives, making those who comply with 
our workplace laws stronger and not weaker.
    Finally, transparency is another critical principle that 
ensures that all parties affected by the laws administered by 
the Division understand their rights and responsibilities as 
well as the objectives and policies being pursued by the 
agency. Transparency also entails fostering dialog with 
Congress and the public, and if I am confirmed, I would make 
engagement with all parties, including this committee, a major 
priority.
    The complexity of the modern workplace and the challenges 
facing the Wage and Hour Division are very great. I would be 
honored to be able to work with the talented men and women that 
make up the Wage and Hour Division in their vital work of 
ensuring that American workers receive a fair day's pay for a 
fair day's work.
    Mr. Chairman, Ranking Member Alexander, and members of the 
committee, I once again thank you for the opportunity to 
discuss my views, and I look forward to addressing your 
questions.
    [The prepared statement of Mr. Weil follows:]
                Prepared Statement of David Weil, Ph.D.
    Thank you Chairman Harkin, Ranking Member Alexander, and 
distinguished members of the committee for the opportunity to appear 
before you today as you consider my nomination to serve as the U.S. 
Wage and Hour Administrator.
    I am deeply grateful to President Barack Obama for nominating me to 
the position of Wage and Hour Administrator and to Secretary Thomas 
Perez for the confidence he has shown me in supporting my nomination. 
As someone who considers himself a son of two great States, I want to 
thank Senators Warren and Markey of Massachusetts for their kind 
introductions this morning. I also wish to acknowledge and thank my 
wife, Miriam, sisters Carla and Lisa Weil, cousins Greg Schetina and 
Amy Shapiro, and many friends for joining me today.
    I am humbled by the opportunity, if confirmed, to serve my country 
as Wage and Hour Administrator. The laws that the Wage and Hour 
Division oversees, including the Fair Labor Standards Act which 
celebrates its 75th anniversary this year are key to ensuring that men 
and women are paid a fair day's wage for a fair day's work and that 
businesses who abide by the law can compete on a level playing field. 
These principles are not only rooted in our workplace laws, but reflect 
a basic concept of justice that underlies our labor market and economy.
    I sit here today in large part because of the ability of my parents 
and grandparents to earn a fair day's wage for a fair day's work. My 
mother's parents came to the United States at the turn of the last 
century. Like thousands of other immigrants, my grandparents worked for 
years in the garment industry in order to save enough to start a small 
business to support their family and educate their children. My father 
and his family fled Nazi Germany and arrived in the United States in 
1939 with few resources, but a desire to build a new life in this 
country. My father has often recounted to me the many jobs that he held 
as a young man. Whether stocking goods in a grocery, selling shoes, 
delivering mail, or working on a truck assembly line, he was able to 
earn enough to help support his family, go to college, and eventually 
attend medical school, providing a solid economic foundation for his 
children.
    Growing up in a small town in northeastern Colorado, I had many 
classmates whose families were seeking to find the same pathway--
whether the sons and daughters of farmers or farm workers, of workers 
in the local meat packing and livestock industry, or of small business 
owners. Some of those families were successful in building an economic 
foundation for their children as my parents were able to do for my 
sisters and me. But other families were not so fortunate. These 
experiences gave me a deep appreciation of the opportunity that had 
been afforded to my family and an abiding interest in the labor market 
and the workplace. Beginning with my doctoral work at Harvard 
University and continuing over the course of my academic career, I have 
pioneered research regarding how industry structure and market forces 
affect business decisions regarding the workplace. As a Boston 
University business school professor who has taught close to 1,000 MBAs 
in my 20-year career, I bring a unique perspective to these public 
policy questions, rooting my work on government policy in an 
understanding of how businesses make decisions in competitive 
environments. On the basis of my expertise, I have advised both 
Democratic and Republican administrations in the United States at the 
Federal and State levels and policymakers in other countries on 
designing and implementing public polices for the workplace, 
particularly in the area of labor standards.
    If confirmed, I would work tirelessly as Wage and Hour 
Administrator to assure that men and women receive the compensation 
that they are entitled from their work and that the ideals embodied in 
labor standards legislation are carried out in practice. Let me 
describe the principles that would guide me in pursuit of that goal.
                       principles and priorities
    In my view, a fundamental role of the Wage and Hour Administrator 
is making sure that the laws entrusted to the agency are administered 
efficiently, effectively, fairly, transparently, and rigorously. Let me 
briefly describe what these principles mean to me.
    Efficiency: The Wage and Hour Division, like all organizations, has 
limited resources with which to pursue its objectives--in this case, 
ensuring compliance with minimum wage, overtime, child labor, family 
medical leave, and other compensation standards across millions of 
workplaces spread throughout the United States. In order to efficiently 
respond to this challenge, the agency must prioritize. Prioritization, 
in turn, requires establishing clear measures of workplace problems. 
Efficiency attained through prioritization, however, must be 
accompanied by a second principle: effectiveness.
    Effectiveness: Achieving the aims of labor standards laws requires 
using the appropriate methods to achieve compliance. The Wage and Hour 
Division has a range of tools available to it and the agency must 
choose the most effective tool at hand. For example, non-compliance may 
arise in some instances from confusion about regulatory requirements. 
In such cases, education and outreach may be the most appropriate 
tools. In other cases, non-compliance may arise from intentional and 
sometimes egregious efforts to evade legal requirements. Those cases 
require stronger tools of enforcement, particularly where businesses 
gain competitive advantage by not complying with the law. This relates 
to a third principle: fairness.
    Fairness: It is important to ensure that those businesses that 
comply with the law--and often exceed its requirements--are not put at 
a competitive disadvantage because of their responsible actions. At the 
same time, one must be equally vigilant that businesses that flout the 
law do not benefit from that behavior. This fairness principle requires 
administering labor standards laws in a way that creates the right 
incentives, making those who comply with our workplace laws stronger, 
not weaker, in the markets in which they operate.
    Transparency: It is critical for all parties affected by the laws 
administered by the Wage and Hour Division--workers, businesses, 
workers advocates, business associations--to understand their rights 
and responsibilities under the law, as well as the policies being 
pursued by the agency. The transparency principle of clearly 
articulating and communicating with those parties and making the 
activities of the Wage and Hour Division as clear as possible is a 
natural complement to the other principles. If employers clearly 
understand their responsibilities under the law they are far more 
likely to comply with them.
    Transparency is also a vital principle in working with Congress and 
more broadly with the public. It is essential that the Wage and Hour 
Division clearly articulate its policies and procedures and explain how 
these relate to achieving its mission. Transparency is also vital for 
fostering dialog with stakeholders, Congress, and the general public. 
If I am confirmed, I would make that engagement a major priority.
    Rigorous Evaluation: A final principle to ensure that the Wage and 
Hour Division best achieves its objectives is engaging in ongoing, 
rigorous, and evidence-based evaluation of all that we do. Evidence-
based management complements the other principles, whether in setting 
priorities, assessing which intervention tools will have the greatest 
efficacy, or in providing stakeholders ongoing information on the 
activities of the agency. Equally, making evaluation a core part of 
what the agency does means that new initiatives will be assessed as to 
whether or not they achieve intended objectives. If confirmed, I would 
work to ensure that both existing and new initiatives were carefully 
evaluated and that appropriate adjustments were made in light of those 
evaluations.
    Given the complexity of the modern workplace, the challenges facing 
the Wage and Hour Division are great. I would be honored to be able to 
work with the talented men and women that make up the Wage and Hour 
Division in their vital work of ensuring that American workers receive 
a fair day's pay for a fair day's work. Mr. Chairman, Ranking Member 
Alexander, and members of the committee, I once again thank you for the 
opportunity to discuss my views with you and I look forward to 
addressing your questions.

    The Chairman. Thank you very much, Dr. Weil.
    I see a vote has been called. There seems to be a little 
bit of confusion as to how many votes we're going to have over 
on the floor. At least we have one right now. I know that 
Senators have questions to ask. We'll start. We'll see how we 
proceed. We may have to take a break and then come back. We'll 
just have to see what's happening on the floor right now. We'll 
start a 5-minute round of questions here.
    Dr. Weil, there's been a lot of attention to your report, 
which was commissioned by the Department of Labor during the 
last Bush administration, ``Strategic Enforcement of Wage and 
Hour Laws.'' Why is strategic enforcement the right or most 
effective method?
    Mr. Weil. Thank you, Mr. Chairman. The reason strategic 
enforcement is so important gets back to the basic problem of 
limited resources that the agency faces. It has, as the Ranking 
Member said, 1,800 employees that have the responsibility of 
overseeing over 9 million workplaces in the United States.
    Given that the careful use of those resources has to be 
undertaken, that requires both setting priorities about where 
the major problems are and really understanding the forces that 
give rise to noncompliance problems, and then, given that, 
using enforcement as well as outreach and education tools 
appropriately according to where those problems lie. It very 
much results from the need, the fundamental need, to achieve 
objectives by applying resources very carefully.
    The Chairman. Thank you, Dr. Weil. That's really all I 
have. I'll turn to Senator Alexander now.
    Senator Alexander. I'll be brief, to give other Senators a 
chance to ask questions.
    Dr. Weil, the chairman referred to an article you wrote. 
You have a new book coming out, I understand, and you mentioned 
transparency. Would you be willing to give a pre-publication 
copy of that to the committee so that we can consider it as we 
ask questions of you?
    Mr. Weil. I'd be happy to do so.
    Senator Alexander. Thank you very much.
    Sometimes we ask for documents from the Wage and Hour 
Division. We consider that a pretty essential part of our 
oversight process. Do you consider providing documents a part 
of transparency in the way that you would run the division?
    Mr. Weil. Senator Alexander, I view the need to work and 
reach out to all stakeholders, beginning with this committee, 
very seriously. I would certainly cooperate with the committee 
in providing information throughout my tenure, if I was 
confirmed.
    Senator Alexander. Well, that would be a great help. In a 
research paper, ``Broken Windows, Vulnerable Workers,'' et 
cetera, you seem to suggest that--and I'm paraphrasing here--
that if the Wage and Hour Division helps to create an 
environment where workers are not afraid to launch complaints 
against employers, those workers also may not be afraid to take 
on the more perilous jump and participate in organizing a union 
or take the first steps in that direction.
    Do you view the Wage and Hour Division enforcement as a way 
to promote and accomplish unionization?
    Mr. Weil. No, I don't, Senator. The article was written 
about the overall question of the use of employee voice in the 
workplace, which has been an area of my study for many years. 
The point I was making in the course of that article was to 
describe the use of rights, the entire set of rights that 
workers are afforded by our existing labor and workplace laws, 
and whether or not they exercise those.
    I view the use of rights as very important in terms of 
making sure that--again, getting back to the point I made about 
fairness--that employers who have workers who are aware of 
their rights and, therefore, comply with the law are not put at 
a competitive disadvantage against workplace situations where 
workers may not be as aware of their rights, giving an unfair 
advantage to those employers in terms of if they do not comply 
with the law.
    I view the issue of provision of rights as very much a 
fundamental principle of the broader principle of making sure 
that our laws are fairly administered and that they send the 
right incentives so that responsible employers can compete 
effectively.
    Senator Alexander. Would you provide employers who might 
not know their rights to not have a union with the same kind of 
information?
    Mr. Weil. Absolutely. I believe that one must use the 
appropriate tools necessary to provide information about what 
the law requires and what those requirements are. I view 
education and outreach to all employers as an important element 
of what the Wage and Hour Division would do in its policies.
    Senator Alexander. One last question. In a YouTube lecture 
video, you argued that traditional approaches that govern the 
workplace--I'm paraphrasing again--suggest that we might need 
to rethink our basic labor laws. As an academic, that's a 
perfectly understandable comment to make.
    Would you agree that if you're confirmed, you would be 
committed to enforcing the labor laws as they're now written, 
rather than as you think they should be written?
    Mr. Weil. Yes, Senator. I do know that in my role as an 
academic, I have a different kind of role in terms of 
speculating on that, and I would be looking solely at the laws 
that are enacted and the enforcement of them if I was confirmed 
as Wage and Hour Administrator.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    The second bells have rung. Senator Warren was here first. 
I would recognize Senator Warren for at least a few minutes of 
questions before we have to recess.
    Senator Warren. I just have one, Mr. Chairman.
    Dr. Weil, I understand that you are the lead technical 
advisor for the research study on the underground economy 
that's been commissioned by the Commonwealth of Massachusetts, 
that one of the difficulties of enforcing misclassification 
laws is there's very little data on how widespread the problem 
is. For example, the IRS's last comprehensive worker 
misclassification estimate was done almost 30 years ago, all 
the way back in 1984, and it found then that worker 
misclassification was costing the United States about $1.6 
billion in revenues. Remember, that's 1993 dollars, so that's 
about $3.6 billion in today's dollars.
    I'm pleased that the IRS is including another study as part 
of its national research program, and I understand the 
Department of Labor is also looking to do a survey of thousands 
of workers to get more information about the prevalence of 
misclassification. I understand that you're a proponent of 
trying to use objective data to guide enforcement policies.
    I wonder if you could give us a few examples of how the 
Wage and Hour Division could use data to enhance its 
effectiveness in enforcing the laws on misclassification.
    Mr. Weil. Thank you, Senator Warren. I very much agree that 
in the area of misclassification, as in any area, you want to 
start with as much objective data as you possibly can to 
understand both where the problems are and the nature of those 
problems.
    In the case of misclassification, I think it's very 
important that we understand the use of independent contracting 
generally, which is a very old and very legitimate form of 
business organization, and understand where it's being used 
both responsibly but then also where it's being used in an 
inappropriate way, which is what gives rise to 
misclassification, which has the implications of not only, in 
some cases, allowing noncompliance to arise, but also deprives 
tax revenues to taxpayers and results in a number of related 
problems to that.
    I would hope--and I'm not aware or involved in the current 
Labor Department efforts to look at misclassification. I would 
hope, if I was confirmed, to undertake studies to understand 
both the use of legitimate independent contracting and then 
within that where misclassification occurs and how great those 
problems might be.
    Senator Warren. That's very good. I thank you very much. I 
think we are very lucky to have someone of your talents and 
experience who is willing to serve in this job. I look forward 
to your speedy confirmation in this role.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Senator Scott, I know you had a couple of questions.

                       Statement of Senator Scott

    Senator Scott. I'll make them brief because of the time 
that we have.
    Dr. Weil, thank you for being here. I have a couple of 
quick questions. In the area of fissured industries, having 
owned a franchise for about 15 years with Allstate, targeting 
the parent company, so to speak, as opposed to the franchisee 
seems to be inconsistent with who has the ability to have the 
impact on their employees. I'd love to hear your response to 
targeting the parent company as opposed to targeting the 
franchise owners like myself, No. 1.
    No. 2, if we have limited resources, and we're talking 
about the issue of fairness, it seems to me that targeting 
specific industries that do not necessarily represent a large 
body--at least in my State, the industries I'm thinking about 
are 1 out of every 10 jobs, which is a meaningful number of 
employers, whether it's restaurants, construction workers, or 
the hospitality industry. I'd love to have your perspective on 
the issue of fairness and targeting those industries.
    The other question I would have is, why shift from a 
complaint-driven investigation in favor of a directed 
investigation with limited resources?
    Thank you, Mr. Chairman.
    Mr. Weil. Thank you, Senator Scott. As I mentioned in my 
opening statement, I have taught for 20 years in a business 
school and teach my students--I teach managerial economics and 
think a lot about business forms, including franchising, which 
is a very legitimate, longstanding, and productive form of 
business organization. Many of my former MBA students have gone 
into businesses with franchising, and I'm very proud of the 
work they've done over the years.
    My concern with franchising, as in any form of business 
organization, as I said in regards to independent contracting, 
is where that's being used in ways that are not legitimate 
forms of franchising in the pursuit of branding and the other 
reasons franchisors successfully use that business model, but 
instead are used as a way to subvert the law. I think that's 
what all of my writing on franchising is about, the problems 
arising from franchising as opposed to in any way opposing that 
vital form of business organization itself.
    In regards to targeting, all of my work in the past has 
been using objective measures to figure out and really 
prioritize where different industries stand in terms of the 
severity of wage and hour problems. The work I did for the 
Labor Department and the Wage and Hour Division under the Bush 
administration was precisely directed toward that, looking at 
using various government forms of objective data, how we can 
prioritize and rank industries. Prospectively, I would hope to 
again use data, not based on past studies but looking forward, 
to really understand where the major problems in the economy 
are and to act accordingly.
    Finally, in regards to directed and complaint 
investigations, I certainly agree with you that one wants to 
strike the right balance. An organization like the Wage and 
Hour Division must and would continue to use complaint 
investigations and respond to complaint investigations as a way 
of finding out where there are problems and balancing that 
against directed investigations as a way to use limited 
resources.
    Senator Scott. Thank you.
    The Chairman. Again, all the Senators are instructed to 
have any written questions in by 5 p.m. tomorrow, and we hope 
you would expeditiously respond to those, Dr. Weil.
    Thank you again. I'm sorry for the abruptness. We have 
these four votes. I thank your family for being here.
    Mayor Williams, it's always good to see you back up here on 
the Hill.
    And with that, the committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                Prepared Statement of Michael F. Bennet

    Chairman Harkin, Senator Alexander, and my colleagues on 
this committee: It's a pleasure to support David Weil, the 
President's nominee for Administrator of the Wage and Hour 
Division at the Department of Labor.
    David is one of Colorado's best and brightest. He was born 
in Denver and grew up in Greeley. His career and his record 
speak for themselves, and I am confident that he will make a 
terrific Administrator.
    Since 1992, David has worked at Boston University School of 
Management, where he is a professor of Markets, Public Policy, 
and Law.
    He is also the co-director of the Transparency Policy 
Project at the Harvard Kennedy University--a position he has 
held since 2002.
    Since beginning his career in 1987 as a Harvard faculty 
member, David has built up a body of excellent work in the 
field of labor economics. He has published extensively on labor 
and employment policy, served as an advisor to the Wage and 
Hour Division he is now nominated to lead, and advised a range 
of other government agencies.
    David received a Bachelor of Science degree in industrial 
and labor relations from Cornell University, and a Masters and 
Ph.D. in Public Policy from Harvard.
    Academics, labor groups and business leaders commend David 
for his diligence and his research. He is one of the foremost 
experts in this country on how to deploy Federal policy to 
ensure the health, safety and economic security of workers 
across a range of industries.
    As a professor for many years teaching and studying 
regulatory issues from the perspective of both labor and 
business, David understands the real-world impact that 
government policies have on local businesses. From my 
discussions with David, I am confident he will take a fair-
minded approach to this new position, always balancing the 
needs of workers and the needs of businesses, ensuring that the 
Department of Labor considers and safeguards both.
    I am also confident that David can bring a little more 
Colorado common sense to Washington, upholding wage and safety 
standards while allowing for flexibility when it's called for.
    I support David Weil's nomination. I know his service at 
the Department of Labor would contribute to a stronger U.S. 
economy. And I hope this committee and this body will swiftly 
confirm him for this new role.
                                 ______
                                 
                 Letters from Mr. Weil's Academic Peers
                                          October 29, 2013.

Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Minority Member,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: We are all 
academics who study different aspects of employment relations and 
public policy. Each of us has worked in and/or advised the Department 
of Labor and other Federal and State government agencies in both 
Democratic and Republican administrations. While we do not all share 
the same views on employment policy issues, we share a tremendous 
respect for David Weil and believe he would be an excellent 
administrator of the Wage and Hour Division of the Department of Labor.
    David is one of if not the Nation's leading expert on enforcement 
of safety and health, wage and hour, and other workplace regulations. 
He has done extensive research on the effectiveness of different 
enforcement strategies and has worked intensively with Labor Department 
officials for many years to improve the efficiency and effectiveness of 
the policies he will be entrusted to administer.
    He brings a long history of public service to this position. Among 
other things he worked closely with the late John Dunlop, Secretary of 
Labor in the Ford administration, on a major study of work practices 
and productivity in the apparel and textile industries. He currently 
serves as co-director of the Transparency Policy Project at Harvard 
University's Kennedy School of Government. He is recognized by his 
colleagues at Boston University as an extremely competent, fair, and 
thorough administrator.
    For the past 8 years he has served as the neutral chair of the 
Dunlop Agricultural Labor Commission, a position that requires gaining 
and maintaining respect and trust from diverse groups of employers, 
contractors, employees, immigrants, and unions.
    For all these reasons, we are pleased to endorse the President's 
nomination of David Weil to be the Administrator of the Department of 
Labor's Wage and Hour Division. Please feel free to contact any of us 
if we can be of further help to your committee.
    Sincerely,
                                Richard Freeman, Professor,
                       Department of Economics, Harvard University.

                                          Harry Katz, Dean,
      School of Industrial and Labor Relations, Cornell University.

                                  Lawrence Katz, Professor,
                       Department of Economics, Harvard University.

                                  Thomas Kochan, Professor,
                                    MIT Sloan School of Management.

                                   David Levine, Professor,
        Haas School of Business, University of California-Berkeley.

                                          Lisa Lynch, Dean,
          Heller School for Social Policy and Management, Brandeis 
                                                        University.

                       Robert McKersie, Professor Emeritus,
                                    MIT Sloan School of Management.

                                  Paul Osterman, Professor,
                                    MIT Sloan School of Management.

                                     James Rebitzer, Chair,
    Dept. of Economics, Law & Policy, School of Management, Boston 
                                                        University.
                                 ______
                                 
            Boston University School of Management,
                                          Boston, MA 02215,
                                                 November 25, 2013.
Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510.

    Dear Senators Harkin and Alexander: I am writing in strong support 
of the nomination of Boston University Professor David Weil to the 
position of Wage and Hour Administrator in the Department of Labor.
    For the past two decades I have known and worked closely with 
Professor Weil when I served as Dean of Boston University School of 
Management where David was a faculty colleague. Prior to my appointment 
as Dean, I was with Ford Motor Company for 27 years reaching the 
position of president, at Ford of Europe. I currently serve on several 
public company boards of directors.
    As a businessman, and as a senior university administrator, I see 
Professor Weil as a fair and open-minded scholar who would work well 
with business people, with unions, and with other stakeholders. He 
understands and appreciates the working of the free market as well as 
the important role labor plays in the fabric of our economy.
    He is a first-rate, productive scholar who has distinguished 
himself both as a chaired professor at Boston University and at the 
Kennedy School at Harvard where he has been co-director of the 
Transparency Policy Project. But he is also a delightful human being 
with excellent interpersonal skills and a very thoughtful, balanced 
approach to complex issues. I believe he would be an excellent addition 
to the Department of Labor and would serve our country admirably as 
Wage and Hour Administrator. I support his nomination without 
reservation.
            Respectfully,
                                                   Louis E. Lataif.
                                 ______
                                 
                               Read Partners, Inc.,
                                         November 26, 2013.
Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: I am writing in 
support of the nomination of David Weil as Wage and Hour Administrator 
within the Department of Labor.
    My perspective on David's nomination comes from 25 years in 
business, including CEO of a $400 million manufacturing company, 
currently Commercial Vehicle Group (CVGI:NASDAQ). I have also served as 
CEO of two national/global non-profits and as the Assistant Secretary 
for Employment Standards during the Gerald R. Ford Administration, to 
which this particular position reported. I am therefore quite familiar 
with the importance of this position in terms both of overseeing the 
work and of being the object of its statutes and regulations.
    I have known David Weil for nearly a decade and know him to be both 
a brilliant academician and one devoted to public service. In our work 
together, he has proven to be fair and balanced in his treatment of 
business as well as labor interests. Most recently we have worked to 
support common sense solutions to whistle-blower issues within OSHA and 
David's approach is very much one of problem-solving in the interests 
of all parties. When confirmed, I have every reason to believe David 
will consult widely within the business and labor communities to 
provide effective solutions for all parties.
    I commend this nomination to you and would encourage bipartisan 
support for its approval.
            Sincerely yours,
                                              John C. Read,
                                                  Managing Partner.
                                 ______
                                 
   International Brotherhood of Electrical Workers,
                                       Dorchester, MA 02122
                                                 November 27, 2013.

Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: We write to you 
to express our support for the confirmation of David Weil as U.S. Wage 
and Hour Administrator for the Department of Labor. As Business Manager 
of Local 103 of the International Brotherhood of Electrical Workers 
(IBEW), and as Executive Manager of the Boston Chapter of the National 
Electrical Contractors Association (NECA), we rely on David Weil as a 
source of knowledge and skill in finding a balance in the needs of 
employers and employees in today's world. David's acute understanding 
of labor markets and labor-management relations will be a tremendous 
asset to the position of Wage and Hour Administrator and we have no 
doubt that he will utilize his experience and expertise to benefit 
employers and their employees across the country.
    Local 103, IBEW, and NECA are both regional organizations, 
representing 7,000 retired and active electricians and technicians, and 
over 100 electrical contractors, respectively. Our area of the country 
has been at the forefront of innovation for years and with that comes 
an ever-evolving labor market and the challenges of meeting the demands 
of workers, employers, and consumers. We are in constant contact with 
David Weil as we continue to forge a common ground on a number of 
issues. Without David's proficiency at getting to the root of problems, 
determining the requirements of both sides, and recommending solutions 
that benefit everyone, we might have lost out on some terrific 
opportunities for both of our organizations in years past. Because of 
David's guidance over the past few years, all of our members, and for 
that matter, all of Greater Boston and New England is in a position to 
grow a stronger electrical industry into the future.
    We believe that the impartiality and ability to relate to all 
sides, that we have witnessed David Weil exemplify in our own 
negotiations, will allow David to make a seamless transition to 
negotiations on a national level. David is a knowledgeable, practical 
and open-minded individual who makes an ideal candidate for the post of 
Wage and Hour Administrator for the Department of Labor.
    Thank you for your consideration of our recommendation of this very 
important candidacy. Please do not hesitate to contact either of us for 
more information on our experience with David Weil.
            Sincerely,
                                        Michael P. Monahan,
                                 Business Manager, Local 103, IBEW.

                                        Glenn W. Kingsbury,
                                    Executive Manager, NECA Boston.
                                 ______
                                 
                   M. L. Johnson & Associates, LLC,
                                         Seattle, WA 98112,
                                                 November 27, 2013.

Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510.

Subject:  Letter of Support for David Weil's Confirmation as the U.S. 
Wage and Hour Administrator for the Department of Labor

    Dear Chairman Harkin and Ranking Member Alexander: By way of 
introduction, I am a Labor Relations Consultant, having worked in the 
construction industry for over 40 years on projects across the United 
States, both in the public and private sectors. Previously, I was the 
vice president and manager of Labor Relations for the Parsons 
Corporation, a national engineering and construction company. In this 
capacity, I oversaw Labor Relations issues on construction projects 
with a total value in excess of $60 billion that were located 
throughout all areas of the country.
    I am writing you to give David Weil my strongest and highest 
recommendation for the position of U.S. Wage and Hour Administrator for 
the Department of Labor. I have known David for some time and have 
worked with him on a professional basis on a number of Labor/Management 
issues. He is extremely bright and has shown an incredible ability to 
see issues from both the Labor and Management perspective. He has also 
been very open-minded about different, innovative strategies for 
resolving particularly difficult issues.
    I hold David in very high regard for being open to all points of 
view and, in particular, being a good listener to all perspectives. As 
a management representative, I have particularly appreciated that he is 
fair and consistently considers the position of business, understands 
how the business/corporate world works and tries to incorporate these 
views into viable, workable solutions. He is an incredible student of 
``labor'' and one in whom I have a great deal of confidence.
    In my 40-year career, I cannot think of anyone better prepared, or 
with the experience and expertise, than David. He would be an 
outstanding U.S. Wage and Hour Administrator and I encourage you to 
support his confirmation.
    Please feel free to contact me at any time if you desire any 
further information.
            Sincerely,
                                           Mark L. Johnson,
                        Principal, M. L. Johnson & Associates, LLC.
                                 ______
                                 
                   Promontory Financial Group, LLC,
                                   San Francisco, CA 94105,
                                                 November 27, 2013.

Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: I write to you 
in strong support of the nomination of David Weil to serve as Wage and 
Hour Administrator of the U.S. Department of Labor. It has been my 
enormous good fortune to know David for 30 years, since we were 
students together at the Kennedy School of Government in the early 
1980s.
    If I could tell you just one thing about David's character, based 
upon my long acquaintance with him, I would tell you about his 
commitment to fairness, a concept that, for David, rests entirely upon 
a complete and balanced understanding of relevant facts and 
perspectives. From the first days of our acquaintance, David has often 
spoken of the importance of appreciating business and labor interests 
alike, recognizing that, in the long run, the success of each side 
depends upon the success of both sides. Achieving and applying that 
appreciation, through the ceaseless exercise of his great intelligence 
and natural curiosity, and his abiding passion for the welfare of his 
fellow citizens, has been his life's work. I have spent most of my own 
career in business, and currently lead the regional operations of the 
Promontory Financial Group, a boutique consultancy focused on helping 
financial institutions to work through and resolve compliance and risk 
management challenges. Familiar as I am with the needs and perspectives 
of the business community, I am certain that David's confirmation would 
well serve not only our country as a whole, but that community in 
particular. Just as he has done in his academic work, David will 
systematically collect and consider business perspectives in the 
conduct of his official duties. In David, the business community will 
find a door and a mind, both genuinely and reliably open.
            Sincerely,
                                                Konrad Alt,
                Managing Director, Promontory Financial Group, LLC.
                                 ______
                                 
                                 Boston University,
                                          Boston, MA 02215,
                                                  December 4, 2013.

Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510.
    Dear Chairman Harkin and Ranking Member Alexander: I respectfully 
reach out to you in strong support of the nomination of David Weil as 
Wage and Hour Administrator in the Department of Labor. David is a 
distinguished professor at Boston University School of Management who 
understands the workings of the business world. My specific experience 
working with David demonstrates that he would be both fair and open-
minded in discharging his responsibilities as Administrator and would 
be someone who would reach out to all stakeholders.
    These comments are based on my almost 40 years of working in 
industry, at Corning, Quest Diagnostics as chairman and CEO, and most 
recently at Kohlberg Kravis Roberts & Co. before joining the School of 
Management as Dean 3 years ago.
    I would be pleased to provide additional information if it would be 
helpful in the approval process.
            Sincerely,
                                        Kenneth W. Freeman,
                                 Allen Questrom Professor and Dean.
                                 ______
                                 
                                  December 6, 2013.

Hon. Tom Harkin, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC, 20510.

    Dear Chairman Harkin: It is my privilege to endorse Professor David 
Weil's nomination as Administrator of the Wage and Hour Division, 
Department of Labor.
    As the retired vice chairman of Burlington Industries, I have had 
close contact with David in his efforts to improve both the working 
relationships between management and labor in our industry and to 
improve the entire industry's competitiveness.
    Burlington Industries was a very large textile manufacturer with 
well over 25,000 employees. Because of its sophisticated industrial 
relations philosophy, it earned the respect and support of its 
employees.
    David pioneered many aspects of advanced concepts to provide more 
efficient delivery of product through the entire chain of suppliers to 
the ultimate consumer, encompassing fiber, fabric and garment 
production and retail distribution, while enhancing the role of 
employees in each of these segments. In these endeavors, he worked 
closely with notable academics--e.g., the late John Dunlop, chairman of 
Harvard's Economic Department and former Secretary of Labor--as well as 
top industry executives and labor leaders. Beyond his stellar work at 
Boston University, he has made major contributions in collaboration 
with the Labor and Work Life Programs at the Harvard Law School.
    David is visionary, hardworking, intelligent and compassionate 
about his fellow countrymen who are wage earners. I find it an honor to 
now support David's nomination.
            Sincerely,
                                      Bernard A. Leventhal.
                                 ______
                                 
                          The Colton Housing Group,
                                          McLean, VA 22102,
                                                  December 9, 2013.

Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: I am delighted 
to send a letter of strong support for David Weil in his efforts to be 
confirmed as the U.S. Wage and Hour Administrator for the Department of 
Labor. I have known David for over a dozen years and have had the 
opportunity to work with him closely on several occasions--first, to 
collaborate on a study of the high production home builders in the 
United States, and second, to co-author a book Bigger Isn't Necessarily 
Better (Lexington Books, 2012), based on that study.
    David is well-versed not only in the academic world, but in the 
business community. When we were working on the study and book related 
to the high production home builders in the United States, David was 
excellent in understanding the dimensions and concerns of the Nation's 
biggest high production home builders. He has developed great expertise 
over the last many years recognizing and understanding the workings of 
the business world. Not only does he have excellent understanding, but 
he is very fair and very good at laying common ground relationships in 
order to avoid problems and to help work out the best solution.
    I also should comment on David's capacity to work with other 
people--both Republicans and Democrats. David is practical and focused 
on solutions that will be good for the building community and for the 
labor community. He is not an ideologue. I have worked with him in a 
variety of settings and have always found him to be a first class 
professional and someone who is always anxious to learn and to make 
good decisions based on the facts. He is good working with those who 
are ``above'' him, and he is good working with those that work for him.
    I strongly recommend him without any reservations.
            Best regards,
                                            Kent W. Colton,
                                                         President.
    Response by David Weil to Questions of Senator Harkin, Senator 
   Alexander, Senator Baldwin, Senator Franken, Senator Isakson, and 
                                Senator 
                               Murkowski
                             senator harkin
    The FLSA contains a provision that allows employers to receive 
certifications to pay workers with significant disabilities below 
minimum wage; in some cases as low as 50 cents an hour. There have been 
egregious violations of these provisions--including in my home State in 
the town of Atalissa, where dozens of men working at a turkey 
slaughterhouse were kept in deplorable conditions and paid pennies per 
hour; this went on for decades. Further, many workers become almost 
trapped in these sheltered workshops because they do not receive 
training to assist employees to move into competitive integrated 
employment.
    Question. Are you familiar with this provision of the FLSA? What 
will you do to ensure that employers with a 14(c) certificate are 
strictly monitored and fulfilling the requirements of the certificate? 
Will you work with me to reduce the use of 14(c) certificates and 
encourage employers to provide more opportunities for competitive, 
integrated employment for people with disabilities?
    Answer. I understand that stakeholders in the disability community 
have expressed differing views on the subject of the 14(c) exemption 
under the FLSA. This is an extremely difficult issue. If confirmed, my 
responsibility as Wage and Hour Administrator is to ensure that 
employers who employ individuals with disabilities obey the law. I 
would pursue strategies to strengthen compliance with section 14(c) and 
maximize the impact of its benefits for workers with disabilities, 
their employers, families and communities. I share your concerns about 
effectively monitoring the use of 14(c) certificates, and I look 
forward to working with you and other members of the committee to 
provide more employment opportunities for people with disabilities.
                           senator alexander
    According to the information you provided to our committee, I see 
you have worked extensively in the world of academics, which I 
appreciate. As you know, the Wage and Hour Division is a law 
enforcement agency, and its Administrator is tasked with not only 
enforcing the law, but managing its 1,800 employees.
    Question 1a. Can you point to any direct experience you have 
managing a group of employees this big? What is the largest number of 
employees you have managed at one time?
    Answer 1a. I acknowledge that I have never managed or led an 
organization the size of the Wage and Hour Division. But I strongly 
believe that my experience over the last 20 years of leading, managing, 
and supervising in my academic and applied work and my extensive 
knowledge and work with the Wage and Hour Division since 2002 prepares 
me well for the challenges I will face in leading the agency.
    In my 20 years as a professor, there has not been a time where I 
have not been leading and coordinating multiple projects, administering 
research grants and budgets, overseeing faculty colleagues, students, 
and staff on projects, and evaluating the performance of peers and 
subordinates. I have engaged in these activities at multiple research 
centers. The number of people I have managed has varied over time. At 
various times, I have had 18-20 researchers under my supervision and 
management. For example, in 2005, I had five professors, seven 
undergraduate researchers, three Ph.D. students, four staff members 
operating under my supervision between my research studies for the 
Department of Labor, and at Harvard University. I have also managed and 
supervised major teaching and administrative activities. A recent 
example is the redesign of our MBA curriculum where I led the design 
and implementation team over the last year consisting of eight 
professors and instructors, 10 teaching assistants, and five staff 
members, and coordinated with a second design team of similar size.
    My research, teaching, and administrative activities have all 
involved hiring personnel, assessing performance, overseeing budgets, 
responding to staffing issues, relating to external funders and 
research partners and internal administrative units, and setting, 
monitoring, and delivering on project milestones and deadlines.

    Question 1b. What professional experience do you have in enforcing 
any of the more than a dozen major laws the Wage and Hour Division is 
tasked with enforcing?
    Answer 1b. I have worked on a series of major projects with the 
Wage and Hour Division beginning in 2002. Those projects gave me a 
detailed understanding of the internal workings of the Wage and Hour 
Division at the District Office, Regional Office, and National Office 
levels. It has provided me the opportunity to talk with many 
investigators in the course of that work at a variety of offices. I 
have presented that research in a variety of meetings and offices of 
the Wage and Hour Division during the course of that time, allowing me 
to understand how investigations are undertaken as well as other 
administrative activities of the organization.

    Question 1c. Have you ever disciplined a subordinate for violating 
workplace policies? If so, please describe the situation and the 
subsequent discipline, without providing personal information of the 
subject.
    Answer 1c. No.

    Question 1d. Please provide specific management practices you plan 
to implement.
    Answer 1d. I have and would bring an inclusive and collaborative 
leadership style to the Wage and Hour Division. If confirmed, my 
responsibility will be to provide leadership of the agency. This begins 
with articulating a clear vision of how the agency will ensure 
compliance with the laws entrusted to it, given the priorities stated 
by the President and the Secretary of Labor. One of the first 
priorities for me would be to reach out both internally and externally 
to fully understand views on the agency's mission, direction, and 
performance.
    In many years of work with the Wage and Hour Division, I have come 
to know many of the highly experienced and effective staff at the 
national, regional, and district level. Tapping the extensive knowledge 
and expertise in the agency would be critical to effectively lead the 
agency and I would anticipate working hand-in-glove with the career 
staff. Based on my discussions in the first few months, I would assess 
the best mechanisms to work effectively with the staff. I believe in 
creating clear and agreed upon objectives and goals, delegating 
responsibility for specific activities and programs to achieve those 
goals, and establishing strong systems of accountability. I would 
establish management practices and systems (e.g., planning and 
budgeting processes) that would ensure that resources were being 
applied to priorities and programs as the mechanism to discharge that 
accountability. Based on my prior work with the agency, I believe that 
many of those systems are already in place.
    Ongoing evaluation would be a key feature of my management approach 
if confirmed. I believe in setting targets that can be measured in the 
short-, intermediate- and long-term. Establishing clear outcomes for 
gauging success would be critical in terms of assuring that the agency 
is on course in achieving the priorities of the President, and meeting 
the responsibilities established in legislation administered by the 
agency and overseen by Congress.
    My approach to management would also reflect the principle of 
transparency I described in my statement for the record. I believe that 
all parties inside and outside the agency are better served if they 
understand what the Wage and Hour Division is seeking to do, how it 
intends to do so, and its ongoing performance in meeting its 
objectives.

    Question 2a. What is the largest budget you have managed?
    Answer 2a. I have managed research projects with overall budgets of 
approximately $2 million.

    Question 2b. How do you plan to effectively oversee a $230 million 
budget?
    Answer 2b. Budgets provide a critical mechanism for setting 
expectations about programmatic activities and objectives in the 
budgeting period internally and with Congress through authorization of 
funds. Budgets also provide a critical method for linking the 
objectives and activities of an organization like the Wage and Hour 
Division with the resources consumed in pursuing them. If confirmed, I 
would therefore work closely with the staff of the Wage and Hour 
Division in all phases of the budget process, and use them as a means 
of gauging resource allocation against plans for the upcoming budget 
period. Some of my applied work with different organizations has been 
on developing internal management and budget practices to allow 
organizations to both use budgeting as an instrument of financial 
control as well as of strategic management and evaluation. I would 
bring this approach to my oversight of the WHD budget.

    Question 2c. In your interview with committee staff, you stated you 
had not reviewed the Wage and Hour Division's Fiscal Year 2014 
Congressional Budget Justification. Have you since read it? Do you have 
any experience with the Federal budget process? If so, please provide 
specific examples.
    Answer 2c. I have reviewed prior Wage and Hour Division Budget 
Justifications over the years as well as other Federal budget documents 
as part of my prior work with the agency under both the Bush and Obama 
administrations. I have used those documents as a way of understanding 
resource allocation in various parts of the Labor Department and other 
government agencies. If confirmed, I would work closely with the staff 
of the Wage and Hour Division to understand those documents given my 
responsibilities as Wage and Hour Administrator.

    Question 2d. Please explain whether you believe reading the budget 
plan for the agency you would oversee before you are confirmed is 
consistent with good management practices.
    Answer 2d. Reviewing and monitoring all relevant budget documents 
is an important management practice that I have undertaken in all 
projects that I have undertaken. I will review all relevant budget 
documents as a basic part of my responsibilities.

    Question 3a. You have worked as a consultant for several entities, 
including the AFL-CIO, correct? Please explain, in detail, the work you 
did for the AFL-CIO in 2012 and 2013?
    Answer 3a. I worked with the AFL-CIO in those years facilitating an 
annual senior staff retreat held over 2 days. The retreat was aimed at 
bringing the senior department managers of the AFL-CIO to consensus on 
their plans for the upcoming year as well as helping them develop 
mechanisms to make sure that the different departments followed through 
on their specific plans and coordinated across department. The focus of 
this work was effective internal management given chosen overall 
objectives and gaining top level consensus among the staff with those 
plans.

    Question 3b. Please provide the contract you had with the AFL-CIO 
to the HELP Committee for review.
    Answer 3b. I am attaching my invoice for facilitating the January 
2013 retreat.
                               MEMORANDUM

To: Jon Hiatt/Thea Lee, AFL-CIO
From: David Weil, Boston University
Re: Expenses for AFL-CIO retreat 2013
Date: February 3, 2013

    The following expenses were incurred for my participation as 
facilitator in the AFL-CIO Retreat from January 14-15, 2013. I have 
scanned the relevant receipts for them and attached them to this 
invoice. The AFL-CIO should have my W-9 information from the prior work 
in facilitating sessions in 2012.

 
FEES
  Four days (2 days preparation / 2 days facilitation)
  $3,000 / day.............................................   $12,000.00
 
EXPENSES
  Plane fare (Boston-BWI-Boston)...........................      $169.80
  Taxi/Parking.............................................       $50.00
  Food.....................................................       $31.97
                                                            ------------
    TOTAL EXPENSES.........................................      $251.77
                                                            ------------
      TOTAL FEES and EXPENSES..............................   $12,251.77


    The reimbursement check can be sent to my home address: David Weil, 
22 Glenn Road, Belmont, MA 02478.
    Please contact me if you have any questions regarding this invoice.

    Question 3c. Do you plan to recuse yourself from any action in 
which AFL-CIO or its locals are a party or represent a party involved?
    Answer 3c. I have signed a conflict of interest agreement with the 
Office of Legal Counsel of the U.S. Department of Labor that clearly 
states that I will cease all consulting work and that I will not 
participate personally and substantially in any particular matter 
involving specific parties in which a former client of mine is a party 
or represents a party for a period of 1 year after I last provided 
service to that client. This would include the AFL-CIO.

    Question 3d. Are you currently performing any work for the AFL-CIO? 
If so, please explain it in detail.
    Answer 3d. I am not currently performing any work for the AFL-CIO 
and have not done so since the senior staff retreat held in January 
2013.

    Question 3e. Did you perform any work for the AFL-CIO prior to 
2012? If so, please explain in detail the work you performed, whether 
you were paid, and if so, how much you were paid.
    Answer 3e. I facilitated the senior staff retreat for the AFL-CIO 
for the first time in 2011, providing similar services as described 
above. I was paid $15,000 for those services in 2011. As noted in my 
disclosure documents, I was a Trustee of the Board of the National 
Labor College, affiliated with the AFL-CIO, from 1999 to 2007. I was 
not compensated for serving as a Trustee.

    Question 3f. Have you consulted for any other unions--either now or 
in the past? If so, please disclose which union(s), explain in detail 
the work you performed, whether you were paid, and if so, how much you 
were paid.
    Answer 3f. I have disclosed all professional services provided to 
unions and other organizations during the reporting period required in 
my OGE and Senate HELP disclosure forms.

    Question 4. In a letter of support for your nomination sent to the 
HELP Committee, the International Brotherhood of Electrical Workers 
(IBEW), Local 103 said that they are in ``constant contact'' with you 
directly to discuss various issues. Is this accurate? Are you paid for 
your work with this union? If confirmed, will you recuse yourself from 
any issue involving the IBEW?
    Answer 4. I worked as a mediator in a joint project between the 
International Brotherhood of Electrical Workers (IBEW) Local 103 and 
the National Electrical Contractors Association--Boston (NECA) for 
several years in the late 1990s and early 2000s. I have from time to 
time spoken with the business manager of Local 103 and the executive 
manager of NECA--Boston (once or twice per year at the most), but this 
was always on an informal and non-compensated basis.

    Question 5. After I have a chance to review your forthcoming book, 
``The Fissured Workplace: Why Work Became So Bad For So Many And What 
Can Be Done To Improve It,'' will you commit to answering any followup 
questions I may have about it?
    Answer 5. I would be happy to discuss my book with you.

    Question 6a. Your name is included in NELP's report, ``Just Pay: 
Improving Wage and Hour Enforcement at the United States Department of 
Labor'', as a member of the working group that developed the report. 
What was your involvement in reviewing or writing that report? Please 
elaborate, in detail, the work you did on the report.
    Do you support all of the recommendations in the report or 
otherwise agree with them?
    Answer 6a. As an academic expert on workplace regulation and labor 
standards, I was asked to be a member of the working group in 2008. I 
agreed to do so and participated in a series of conference calls during 
2008 and 2009. We were asked to periodically read and comment on drafts 
of the report's discussions proceeded which I did.
    As a working group member, I provided comments on the report. We 
were not asked to support all recommendations in the report, but to 
provide our input regarding them. I did not agree with all of the 
recommendations included in the report at the time nor do I now.

    Question 6b. In particular, the report recommends that the Wage and 
Hour Division,

        ``hold subcontracting (joint) employers accountable for wage 
        and hour violations of their subcontractors using the broad 
        employment definitions in the Fair Labor Standards Act and the 
        `joint employer' regulation.''

    Do you agree with that recommendation?
    Answer 6b, The issue of responsibility in complicated employment 
relationships has been an area of analysis and policy of concern to me 
for some time and remains one. Understanding how to apply legal 
responsibilities of the FLSA and other labor standards has been an 
increasingly challenging one for the Wage and Hour Division for 
decades. I would anticipate that to be the case going forward. This 
would require a more nuanced review than implied in the broad 
recommendation.

    Question 6c. The report also recommends that the Wage and Hour 
Division ``provide guidance to investigators who are told by an 
employer that a complaining worker is an independent contractor'' and 
states that ``the guidance should note that a worker performing labor 
or services is presumed to be an employee absent employer proof to the 
contrary.'' Do you agree with that recommendation?
    Answer 6c. The recommendation is a broad statement that does not 
provide specific guidance required for the Wage and Hour Division. If 
confirmed, I would review policies for investigations in areas of 
concern like the use of independent contracting.

    Question 6d. Do you support issuing new guidance or interpretations 
or amending the Field Operations Handbook (FOH) to instruct 
investigators to presume a worker performing labor or services is an 
employee even if the employer has stated that the worker is an 
independent contractor?
    Answer 6d. If confirmed, I would see it as part of my 
responsibility to rigorously review with the Wage and Hour Division 
staff the adequacy of Field Operations Handbook in achieving the 
objectives established by the laws administered by the WHD.

    Question 7. Should employers be required to provide their employees 
with detailed information regarding such things as how they are 
classified, their rate of pay, and/or any Fair Labor Standards Act 
exemptions that apply to their employment? Should employers have to 
provide written documentation of all this information to their 
employees?
    Would you support new rules requiring this disclosure? Should 
employers be required to keep records of their employee pay for more 
than 3 years, as currently required? If so, for how long?
    Answer 7. While I am unfamiliar with the particular disclosure 
proposal you describe, as a co-director of a research project at 
Harvard University on transparency, I have studied the application of 
disclosure requirements across many different areas of public policy in 
the United States. I would look carefully to evaluate whether 
disclosure in this case and all cases would effectively improve 
compliance with laws administered by the Wage and Hour Division. If 
confirmed, I would welcome discussion with the committee regarding this 
issue.

    Question 8a. At a time of limited budgets for Federal agencies, do 
you support coordinating with third party groups to accomplish the Wage 
and Hour Division's goals? If so, what specific duties do you think are 
appropriate for third party involvement?
    Answer 8a. The investigation and enforcement of the laws 
administered by the Wage and Hour Division are inherently governmental 
and as such are the sole responsibility of the agency.

    Question 8b. If confirmed, will you ensure that third party, non-
governmental groups will not be permitted to carry out the legal duties 
of the Wage and Hour Division as delegated to it by Congress?
    Answer 8b. If confirmed, I assure you that Wage and Hour 
investigators and staff will be solely in charge of investigating and 
enforcing the laws under the Division's jurisdiction.

    Question 8c. Are you familiar with New York's ``Wage Watch'' 
program started by then-State Labor Commissioner Patricia Smith? Would 
you support the implementation of this program within the Wage and Hour 
Division?
    Answer 8c. I am generally familiar with the ``Wage Watch'' program. 
I would not implement such a program at the Wage and Hour Division if 
confirmed.

    Question 9. At a time when our economy continues to recover from an 
unemployment rate high of 10 percent in 2009, should the Federal 
Government encourage job creation and retention among employers 
regardless of their business model? Is it a wise use of taxpayer 
resources to target small employers who are creating jobs?
    I read an op-ed from the USA Today earlier this year written by a 
mother down in Arkansas who started a consignment business for 
children's clothing out of her home. Today, her business has grown to 
over 62 locations in 20 States. Her entrepreneurial business model has 
given families the opportunity to earn a little extra money by selling 
their children's old clothes. Yet, the Wage and Hour Division has 
investigated the mother because she doesn't pay the parents who 
volunteer at these events to get the first crack at shopping before the 
general public. Is this a wise use of the agency's limited resources?
    Answer 9. I am unfamiliar with the particular circumstances of the 
case being discussed in the USA Today op-ed. However, I believe that it 
is the responsibility of the agency to ensure compliance with all of 
the statutes it enforces.

    Question 10a. Last month, the HELP Committee held a hearing titled, 
``Payroll Fraud: Targeting Bad Actors Hurting Workers and Businesses,'' 
focusing largely on employers' use of independent contractors. At the 
hearing, the president of a customized logistics and delivery company 
in New York testified that his company works with 225 independent 
contractors, all of whom enjoy the flexibility of the job but also the 
ability to earn more pay. When millions of Americans are still looking 
for work, is it more beneficial for the Federal Government to encourage 
job creators in this sector or target them for enforcement even when 
there are no complaints from independent contractors engaged with the 
company?
    Answer 10a. It is important that responsible employers who use 
legitimate forms of independent contracting and direct employment are 
not put at a competitive disadvantage by the inappropriate use of 
independent contracting that takes the form of misclassification.

    Question 10b. Do you see a role for the Wage and Hour Division to 
play in protecting the right of individuals and businesses to continue 
to voluntarily choose to use the independent contractor business model?
    Answer 10b. I believe that the Wage and Hour Division can play a 
role in clarifying for all parties where the use of independent 
contracting is a legitimate form of business organization and where its 
use can result in misclassification. Such guidance can increase 
compliance with the laws administered by the WHD and assist both 
workers and employers.

    Question 10c. Do you support allowing individuals to choose to be 
independent contractors?
    Answer 10c. Independent contracting is a well-established and often 
appropriate form of business organization, and I support its use where 
it is used legitimately, as defined by established multi-attribute 
criteria established in court and agency decisions and guidance.

    Question 10d. Do you think the Wage and Hour Division should place 
more requirements on businesses that use independent contractors? If 
so, what types of requirements for businesses are appropriate?
    Answer 10d. I am concerned about misclassification of workers as 
independent contractors which has become a more prevalent problem in 
many industries. If confirmed, I would review the approaches taken by 
the Wage and Hour Division in addressing this issue and evaluate their 
effectiveness at addressing this problem.

    Question 11. During your time at either Boston University or 
Harvard University Kennedy School, did you or your department use 
student interns? Were they paid or unpaid?
    Do you support the use of unpaid internships in colleges and 
universities?
    As you are likely aware, the issue of whether unpaid internships 
are permitted under the Fair Labor Standards Act (FLSA) has attracted 
public attention. If confirmed, will you direct the agency to 
investigate the use of unpaid internships in any way?
    Answer 11. I have always paid students working in teaching, 
research, and administrative projects for me at Boston University and 
at the Harvard Kennedy School. While I am generally aware of the issue 
of unpaid internships, I have not been involved in any WHD initiatives 
in this area nor examined the issue closely. If confirmed, I will 
evaluate the approaches taken by the agency in this area and assess 
whether adjustments are appropriate.

    Question 12. In your written testimony you state that if confirmed 
you will,

        ``ensure that both existing and new [Wage and Hour Division] 
        initiatives were carefully evaluated and that appropriate 
        adjustments were made in light of those evaluations.''

    Will you issue a detailed report of those evaluations and any 
changes made to Chairman Harkin and myself?
    Answer 12. I do not plan, nor am I required, to issue a written 
report of my evaluation. I would, however, be happy to make myself 
available to discuss with Members of the committee decisions I would 
make based on my assessment of the agencies current policies and 
practices.

    Question 13a. Do you plan to increase the utilization of directed 
investigations at the Wage and Hour Division?
    Answer 13a. As noted in my hearing, if confirmed, I would use 
objective information to prioritize where the WHD should focus its 
attention going forward and assess what tools would be most effective 
to improving compliance with the laws administered by the WHD. I 
believe that the agency should balance the use of complaint and 
directed investigations in pursuing its objectives. At this stage, I am 
not able to assess whether the current mix of investigations meets 
those objectives.

    Question 13b. If so, in what industries would you expect to 
investigate?
    Answer 13b. As noted, I cannot answer that question at this time.

    Question 13c. Will you commit to not diverting resources from 
complaint-based investigations toward directed investigations?
    Answer 13c. I will seek a balance of directed and complaint 
investigations given the larger need to improve compliance with the 
laws administered by the Wage and Hour Division.

    Question 13d. Will you commit to treating all complaints equally 
based on the merits, not based on the industry?
    Answer 13d. Complaint investigations will always be an important 
part of the work undertaken by WHD investigators. I will commit to 
creating clear, transparent, and fair guidance on the prioritization of 
complaint investigations that can be applied in a consistent manner 
across the agency.

    Question 14a. Do you believe that there is an inherent unfairness 
in the workplaces of fissured industry workplaces?
    Answer 14a. I am concerned about instances where business 
organization is used as a means of avoiding compliance with legal 
requirements, and where that may give these businesses a competitive 
advantage against other businesses that are responsibly complying with 
the law or exceeding its requirements.

    Question 14b. If so, how will you differentiate between what you 
personally may view as unfairness in the workplace versus what is 
actually a labor violation?
    Answer 14b. If confirmed, I would base the policies and practices 
related to Wage and Hour Division enforcement on how relevant laws and 
regulations define compliance or non-compliance.

    Question 15. According to a slide on your July 29, 2011, YouTube 
video, you state that there should be ``polices to re-balance (not end) 
business decisions on fissuring,'' including ``adjusting employment 
laws/notions of liability'' and ``stopping pernicious forms of 
fissuring.'' Please explain, in detail, what you meant by these 
statements.
    Specifically, please include what employment laws you thought 
needed to be adjusted and how so? What ``notions of liability'' did you 
think needed to be adjusted? What are ``pernicious forms of 
fissuring''? Do you still hold these views? Will you make any attempt 
to ``adjusting employment laws/notions of liability'' if you are 
confirmed as the WHD Administrator?
    Answer 15. Pernicious forms of fissuring are those types of 
business entities that are created principally to avoid legal 
obligations under the FLSA as well as other workplace and tax laws. In 
many cases, these are entities that regulatory agencies or courts have 
found to be used as mechanisms to avoid compliance. In the video, I was 
commenting on policy implications in my academic capacity based on my 
extensive research on the impact of business organization and industry 
structure on compliance. If confirmed as Wage and Hour Administrator, 
my responsibility is to administer existing laws.

    Question 16a. As you are likely aware, the Senate may vote soon on 
an increase in the minimum wage to $10.10 per hour, with future 
increases tied to the Consumer Price Index (CPI). Do you support that 
increase?
    Answer 16a. President Obama supports the increase in the minimum 
wage to $10.10 provided in the Harkin-Miller bill and so do I.

    Question 16b. Do you support a larger increase? Please explain why 
you would or would not support a larger increase.
    Answer 16b. A family trying to raise children with a parent working 
full-time at the minimum wage will fall below the poverty line given 
the current minimum wage. President Obama thinks this is wrong and 
strongly supports an increase in the minimum wage. I agree with the 
President and support the increases incorporated in the Harkin-Miller 
bill.

    Question 16c. Earlier this year, economist and New York Times 
columnist Paul Krugman wrote that most economists would ``agree that 
setting a minimum wage of, say, $20 an hour would create a lot of 
problems.'' Do you agree with that statement? If so, should indexing 
sunset once the minimum wage reaches $20 per hour?
    Answer 16c. Studying the impact of minimum wage increases on 
employment is one of the most heavily examined areas in labor economics 
and the best studies indicate that the effects of increases of the 
minimum wage to $10.10 on employment would be negligible. At the same 
time, it would have significant effects on increasing earnings in 
millions of households, in some cases raising those households out of 
poverty. The increases discussed in Dr. Krugman's article are far 
beyond the range being contemplated in discussions of the Federal 
minimum wage.

    Question 16d. Do you support the use of the tip-credit? Do you 
believe the tip-credit should be higher or lower than current law 
requires?
    Answer 16d. The existing wage rate for tip-credit has not been 
adjusted since 1991. President Obama believes that an increase in the 
minimum wage for tipped employees is long overdue, and I agree.

    Question 17. In March, the HELP Committee held a hearing on raising 
the minimum wage. One witness, a franchise owner from New Jersey 
testified that the median hourly earnings for servers in the restaurant 
industry range from $16 per hour for entry level employees to $22 per 
hour for more experienced employees, after tips. These amounts far 
exceed the current minimum wage, and show the robust earning potential 
in the restaurant industry. In followup questions, it was pointed out 
that the Occupational Employment Statistics (OES) from the Bureau of 
Labor Statistics, found the median hourly earnings for servers to be 
only $8.92 per hour, including tips. With an obvious discrepancy that 
the restaurant industry believes is due to issues with the OES survey, 
there is a concern that discrepancies exist in other parts of the 
survey as well. The Wage and Hour Division relies on the OES survey for 
other areas of enforcement such as establishing prevailing wage 
determinations for several government contracts. Are you concerned that 
the Wage and Hour Division could be relying on inaccurate wage 
information? If confirmed, what will you do to ensure only the most 
accurate data is used for important agency determinations?
    Answer 17. As someone trained in labor economics, I believe that it 
is important that wage data accurately reflect relevant labor market 
conditions. If confirmed, I would be interested in learning more about 
the issues raised in your question.

    Question 18a. In September of this year, the Department of Labor 
finalized a new rule that would greatly narrow the application of the 
companionship exemption under the Fair Labor Standards Act (FLSA), so 
that many in-home care givers would have to be paid overtime. The new 
rule will greatly increase costs for elderly individuals and their 
families. If confirmed, you will have a major role in implementing the 
Final Rule, as it won't go into effect until 2015.
    Throughout the rulemaking process many groups, including the 
association that represents State Medicaid directors, voiced opposition 
to the rule. Will you reach out to those groups to discuss and address 
their concerns?
    Answer 18a. I am aware generally of the concerns expressed by 
Medicaid Directors that the rule could impact State budgets and the 
provision of certain services. If confirmed, I am committed to working 
with the National Association of Medicaid Directors, State Medicaid 
directors directly, and other stakeholders, to address their concerns 
without compromising the integrity of the rule.

    Question 18b. Do you agree that as a result of the rule, costs for 
in-home care will rise?
    Answer 18b. The Department's economic analysis shows that the 
rule's major costs, which will not be lasting, will be the opportunity 
costs of the time managers spend shifting schedules, the reduction in 
work hours of some direct care workers, and reduced overtime payments 
to direct care workers. The rule's major benefits, which are lasting 
effects of the Final Rule, will be reduced turnover of direct care 
workers and higher pay for those low-wage workers.

    Question 19. In your written testimony you state that one of the 
principles with which you will lead the Wage and Hour Division, if 
confirmed, is fairness. You state,

          ``This fairness principle requires administering labor 
        standards laws in a way that creates the right incentives, 
        making those who comply with our workplace laws stronger, not 
        weaker, in the markets in which they operate.''

    Does your fairness principle include using a strong and active 
compliance assistance program for employers who are faced with keeping 
up with an ever changing set of wage and hour laws?
    Answer 19. Yes.

    Question 20a. At the start of the Obama administration, the Wage 
and Hour Division ended the longstanding practice of providing Opinion 
Letters that answered questions about specific applications of labor 
laws. These letters were viewed a useful tool by employers and 
employees alike. The Opinion Letters were replaced with administrator's 
interpretations that only give broad opinions on a subject chosen by 
the agency, leaving many specific details unanswered. To date, the Wage 
and Hour Division has only issued a total of five administrator's 
interpretations.
    Do you think stakeholders in general benefit from being able to ask 
fact specific questions about the application of the law, and receive 
an appropriate response in return?
    Answer 20a. I believe it is important for all stakeholders to 
understand their responsibilities and rights under the law. Providing 
that information in a clear, consistent, and accurate manner to all 
parties would be an operating principle for me if confirmed.

    Question 20b. Will you commit to restoring a more robust and 
interactive compliance assistance system so folks can spend less time 
trying to decipher the law and more time growing successful businesses 
and creating new jobs?
    Answer 20b. I believe that helping employers understand their 
responsibilities clearly under the law is extremely important. Finding 
ways to help them understand how the law works through different 
methods of education and outreach helps to achieve the objectives of 
the laws administered by the WHD. If confirmed, I would examine 
different methods to help employers understand their responsibilities 
so that businesses can act responsibly as they undertake the crucial 
role of creating good jobs.

    Question 21. Regulations issued under the Fair Labor Standards Act 
(FLSA) have been criticized for providing little guidance to employers 
or employees on the standards for exempt status under the Act. 
Employees exempted under the FLSA may not be subject to overtime or 
minimum wage. Terms like ``administrative, managerial and 
professional'' are not subject to an easy definition and the terms used 
to define them are often unclear.
    Should the Department of Labor provide safe harbors for exemptions 
based on clearly understood standards?
    Do you believe that it is appropriate to recognize an individual as 
an exempt managerial employee when that person supervises two or more 
other employees?
    Do you plan on promulgating any new regulations regarding the 
interpretation of the exempt definitions?
    Answer 21. The issue of exemptions under the FLSA is a complicated 
one. If confirmed, I would examine the issues regarding exemptions and 
their application given current and prospective issues in the workplace 
carefully and would look forward to working with the committee as well 
as stakeholders in making decisions in this area.

    Question 22a. In your written testimony you state that the Wage and 
Hour Division has ``a range of tools available to it.'' You used 
education and outreach as specific examples, but what other tools do 
you believe are at the agency's disposal and how do you plan to use 
them?
    Do you plan on adding new ``tools'' to the Wage and Hour Division's 
enforcement mechanisms?
    Answer 22a. While I have no plans to add any ``new tools,'' if 
confirmed, I will review the use of the existing spectrum of 
intervention tools to achieve the objectives set out in the laws 
administered by the Wage and Hour Division and evaluating their use 
relative to the problems facing the agency.

    Question 22b. If confirmed, will you commit to utilize notice and 
comment rulemaking under the Administrative Procedure Act (APA) to 
implement any new ``tools''?
    Answer 22b. I will follow the requirements of the APA, where 
applicable.

    Question 22c. Have you written about particular regulations or 
regulatory policies that you think would help the Wage and Hour 
Division do its job? If so, what are those regulations?
    Answer 22c. As an academic, I have written about policy 
implications arising from my empirical studies of labor standards. If 
confirmed as Administrator, however, my responsibility would be to 
implement existing laws and regulations. I would base any new 
initiatives on regulations on the facts and based on reviews undertaken 
as the Wage and Hour Administrator.

    Question 23a. In your interview with committee staff, you stated 
that you do not want employers who follow the law to be punished by the 
market for doing so. Please elaborate on ``punished by the market''?
    Answer 23a. I used this phrase to describe the situation where a 
responsible employer that complies with the law is put at a competitive 
disadvantage against an employer who violates the law and is able to 
therefore operate at lower costs arising from those violations.

    Question 23b. Do you believe if employers use a fissured business 
model, but they follow the law, they can still put their competitors at 
a disadvantage? If so, do you view the role of the Wage and Hour 
Division Administrator to remedy those competitive disadvantages?
    Answer 23b. The responsibility of the Wage and Hour Division is 
ensuring that employers comply with the law. My focus would be to 
ensure that the policies and practices of the WHD improve compliance 
with laws.

    Question 24. The Davis-Bacon Act law is clear: prevailing wage 
requirements are required where the Federal Government or the District 
of Columbia ``is a party, for construction, alteration, or repair, 
including painting and decorating, of public buildings and public works 
of the Government or the District of Columbia.'' 40 U.S.C. 
Sec. 3142(a). Do you agree that when the Federal Government or the 
District of Columbia is not a party to the project, and no Federal 
dollars are spent on the project, the Davis-Bacon Act does not apply?
    If confirmed, will you commit to reviewing the Wage and Hour 
Division's recent rulings and guidance that dramatically expand the 
scope of the Davis-Bacon Act?
    Do you agree with the Department of Labor's novel ruling that the 
Davis-Bacon Act applied to the CityCenter construction project in 
downtown Washington, DC? Do you agree that because the project will 
create an economic benefit by supplying jobs and tax revenue for the 
city, it is a ``public work'' project?
    Do you think Department of Labor's decision on the CityCenter 
project computes with your notion of ``fairness''?
    Do you agree with the May 24, editorial from the Washington Post 
calling the decision a,

        ``strained notion of a public project [that] contradicts any 
        common-sense definition, or that it could apply to--and raise 
        the cost of--all future commercial redevelopment of land 
        belonging to the District or to the Federal Government 
        anywhere?''

    Do you agree that if there is no Federal contract or Federal money 
spent on a construction project, the project is not being performed to 
any government specifications, the construction project is not designed 
for any specific government use, or that there is no expectation of 
government or public use of the project, then the Davis-Bacon Act is 
not applicable?
    Answer 24. I believe that decisions about the applicability of the 
Davis-Bacon Act require a thorough evaluation of the project in 
question. With regards to the CityCenter case, this is an issue that I 
have general understanding however, I've not dealt with the issue 
personally. If confirmed, I would be interested in learning more about 
the Department of Labor's decision in this case.

    Question 25a. Many decisions that were made by the political 
leadership at the Wage and Hour Division under the Obama administration 
have been made without input from various stakeholder groups. For 
example, on March 22, the Wage and Hour Division issued guidance on the 
application of the Davis-Bacon Act to members of survey crews, changing 
over 50 years of precedent. The guidance was based on a single request 
from the International Union of Operating Engineers, without input from 
other stakeholders. Should you decide to issue any new policies, 
interpretations, or guidance, will you commit to a full and transparent 
process with the input of all affected stakeholders as opposed to a 
select group?
    Answer 25a. Yes. As noted in my statement for the record, 
transparency including engagement with stakeholders is a fundamental 
principle to me.

    Question 25b. Senator Roberts and I currently have an outstanding 
document request with the Wage and Hour Division about their recent 
guidance, Memorandum No. 212, ``Applicability of Davis-Bacon labor 
standards to members of survey crews.'' So far, we have only been 
provided with a limited number of documents. If confirmed, will you 
commit to working with us on the entirety of our document request?
    Answer 25b. If confirmed, I am committed to working with you on any 
issues of interest to the committee.

    Question 26a. Do you support the use of compensatory time in lieu 
of overtime pay? Should the Fair Labor Standards Act (FLSA) be amended 
to permit private sector employees to voluntarily accept compensatory 
time in lieu of overtime pay?
    Answer 26a. There are many time pressures on modern families. We 
should give serious consideration to policies that help families deal 
with the competing demands they face. The Fair Labor Standards Act 
requires that covered workers be promptly paid for overtime worked. I 
would be concerned about any legislative proposals that would dilute 
the value of overtime pay.

    Question 26b. Does your current employer, Boston University offer a 
form of compensatory time?
    Answer 26b. Boston University provides provisions for compensatory 
time both under its contracts with unionized employees and in the 
employee policies covering non-represented, non-faculty personnel.

    Question 26c. Do you support the use of compensatory time by 
Federal employees?
    Answer 26c. Yes.

    Question 26d. Would you support curtailing the use of compensatory 
time by Federal employees?
    Answer 26d. Decisions regarding the use of compensatory time for 
most Federal employees fall under the jurisdiction of the Office of 
Personnel Management.
                            senator baldwin
Direct Care Workers
    As our Nation ages, members of the baby boomer generation are 
facing health care decisions for their parents and considering future 
health decisions for themselves, and their families. More Americans are 
choosing to receive long term care at home. It is of the utmost 
importance that these workers provide high quality care and are 
adequately compensated for their work.
    In September, the Wage and Hour Division announced a long-sought-
after final rule extending the Fair Labor Standards Act's minimum wage 
and overtime protections to most of the Nation's direct care workers 
who provide home care assistance to seniors and people with illnesses, 
injuries, or disabilities.
    This welcome change, effective January 2015, will ensure that 
nearly 2 million workers, including nearly 90,000 in Wisconsin, have 
the same fundamental workplace protections already provided to most 
U.S. workers in other fields. It also will ensure that individuals and 
families who rely on the assistance of direct care workers have access 
to consistent and high quality care.
    Question 1. Dr. Weil, as Administrator, what will you do to help 
families, businesses, and affected workers understand, comply with, and 
benefit from the new requirements?
    Answer 1. The recently finalized rule extends minimum wage and 
overtime protections to in-home caregivers across America--protections 
they are currently denied. I am aware that there have been concerns 
expressed by the industry and some groups about the potential impact of 
the rule. If confirmed, I am committed to an open dialog with this 
committee and others on appropriate ways to address those concerns 
during the implementation phase until the rule will become effective in 
January 2015. I believe an aggressive outreach campaign will help all 
stakeholders understand and comply with the new requirements.
Minimum Wage
    Dr. Weil, your nomination hearing comes on the heels of nationwide 
protests in support of raising the minimum wage. In my home State of 
Wisconsin last week, we saw fast food workers in Milwaukee, Madison, 
and Wausau strike for higher wages--wages that support working 
families. Thanks to Chairman Harkin's leadership on this issue, I am 
very hopeful that we'll see the full Senate vote to increase the 
minimum wage soon--this will be a long overdue increase for hardworking 
Americans across the country. It seems to me that there are a few myths 
surrounding the national conversation about raising the minimum wage 
and government social welfare programs that need to be dispelled as we 
move toward this vote and Dr. Weil, I'd like your thoughts on two.
    The first is that it's not necessary to raise the minimum wage 
because minimum wage workers are students or teenagers who are not 
supporting families. And yet we know this isn't true. Nearly 90 percent 
of workers who would benefit from increasing the minimum wage are at 
least 20 years old, and 55 percent work full-time. More than three 
quarters of minimum wage earners are parents and 70 percent are in 
families with incomes of less than $60,000 a year.
    The second myth is that low-income Americans want to be on Federal 
assistance programs. In fact, they must rely on government programs 
because they don't earn enough money. Therefore, raising the minimum 
wage could allow Americans who currently rely on government assistance 
programs the ability to be more self-sufficient--and that is much 
closer to obtaining the American Dream.
    Question 2. Dr. Weil, can you help us dispel these myths?
    Answer 2. The profile of minimum wage earners has changed 
tremendously in the ways described in your question. Perhaps the best 
way to see this are looking at estimates of who would be affected by an 
increase of the Federal minimum wage to $10.10 as proposed in the 
Harkin-Miller bill. Nearly 90 percent of those who would benefit would 
be 19 years or older and approximately 58 percent of those are women, 
many of whom are raising children.
    The modest minimum wage increases we've seen have not kept pace 
with the higher costs of basic necessities for working families. In 
fact, the minimum wage has fallen 30 percent in value since 1968. The 
current level of the minimum wage therefore undermines the goal of the 
minimum wage providing a basic platform for people to get a solid 
footing in the labor market and economic opportunity.
Family and Medical Leave Act (FMLA)
    Dr. Weil, my last question is about the Family and Medical Leave 
Act--or FMLA. As you know, this is a Federal law that guarantees 
eligible employees up to 12 weeks of unpaid leave each year to care for 
a newborn, a newly adopted child or a seriously ill family member, or 
to recover from their own serious health conditions, including 
pregnancy. As Administrator, you would have responsibility for 
enforcing this law.
    Now, we know that about 40 percent of the workforce is not eligible 
for leave under the FMLA because of the current eligibility 
requirements. Millions more Americans cannot afford to take unpaid 
leave, so these protections are still out of reach.
    Question 3. Dr. Weil, can you share any thoughts on making the FMLA 
accessible to more hardworking Americans? It's up to Congress to change 
statutory eligibility requirements to provide for greater access to 
FMLA benefits. But as Administrator, what would you do to increase 
outreach and education around current FMLA benefits? How might you 
consider working with employers, States, and cities interested in 
providing access to paid leave--a benefit not provided for under the 
FMLA, but an important policy that provides for greater economic 
security?
    Answer 3. I believe that a fundamental role of the Wage and Hour 
Division is providing outreach and education to all stakeholders--
workers, employers, worker advocates, and business associations and the 
public--about their rights and responsibilities under the FMLA as well 
as other laws administered by the agency. The FMLA is a landmark piece 
of legislation in ensuring protections of working people in caring for 
members of their family. If confirmed, I look forward to working with 
you, and the committee as well, as stakeholders in making sure we are 
achieving the critical objectives embodied in the FMLA.
                            senator franken
    Question 1. Worker misclassification is a growing problem that 
threatens workers and undercuts law-abiding employers. Worker 
misclassification is a significant problem in Minnesota, particularly 
in the construction industry. Why do you think worker misclassification 
is so prevalent? In the absence of changes to the current Federal 
approach, do you think the trend in misclassification will continue? 
How will you improve Federal efforts to deter worker misclassification?
    Answer 1. The majority of employers using independent contractors 
to undertake work are doing so in a responsible manner--for example 
using independent contractors to do specialized work that the company 
itself does not have the capacity or expertise to undertake. 
Misclassification, however, is a serious matter involving changing the 
designation of what is for all intents and purposes an employment 
relationship into an independent contracting relationship, as a means 
of avoiding costs, shifting the liability, or otherwise avoiding legal 
responsibilities. If such misclassification is allowed to occur, it 
creates the wrong incentives in a market: companies that are able to 
shift legal responsibilities and costs can gain competitive advantage 
and underbid other companies that are abiding by the law. That allows 
the practice of misclassification to spread and become more prevalent. 
It is therefore important to take actions that stop the tilting of the 
market toward non-compliance.
    Although I have not had a role in the current Wage and Hour 
Division policy regarding misclassification, I believe that it has made 
positive steps in addressing this problem. If confirmed, I would want 
to carefully evaluate the steps it has taken and assess the 
effectiveness of those policies and the need for further adjustments. I 
would welcome the opportunity to discuss your and the committee's views 
on this matter.

    Question 2. In 2011, the Minnesota Department of Labor and Industry 
entered into a memorandum of understanding with the U.S. Department of 
Labor to improve worker misclassification enforcement efforts. It is my 
understanding that this effort has been helpful, but there is still 
ample reason to be concerned about increasing misclassification in 
Minnesota and elsewhere. How will you improve coordination between the 
Department of Labor and States like Minnesota to support efforts to 
prevent misclassification?
    Answer 2. I am aware that the Department of Labor has entered into 
memoranda of understanding with a number of States regarding the 
coordination of misclassification efforts. Given the importance of 
misclassification, I would want to carefully evaluate those initiatives 
including those in Minnesota to understand their purposes, progress, 
and impact and reach out to the State agencies involved in those 
efforts as well as other stakeholders. I would once again welcome the 
opportunity to discuss your and the committee's views on this matter.

                            senator isakson
    Question 1. Employee Misclassification was the subject of a recent 
HELP Subcommittee on Employment and Workplace Safety hearing. As the 
Ranking Member of that committee and as a businessman who ran a company 
employing over 800 independent contractors, the issue of 
misclassification of employees is of great interest to me. Do you feel 
that the enforcement of current law is enough to keep employers from 
misclassifying workers, and if not, what do you propose to do to help?
    Answer 1. Independent contracting is a legitimate form of business 
organization found in many parts of our economy. However, 
misclassification of employees as independent contractors is a very 
serious issue that can result in non-compliance with laws. 
Misclassification is a serious problem not only because it deprives 
workers of compensation and protections that they are due, but because 
it disadvantages law-abiding businesses that do not misclassify their 
employees, and harms responsible taxpayers. When a business 
misclassifies employees in order to cut costs, it makes it harder for 
those employers who play by the rules to succeed. This can create 
market incentives that encourage other employers to misclassify their 
workers.
    If confirmed, I would seek to understand where misclassification is 
likely to be a problem and review appropriate interventions to respond 
to it. I would look forward to discussing this important problem with 
you and the committee.

    Question 2. Your written testimony states that employer,

        ``non-compliance [with labor laws] may arise from intentional 
        and sometimes egregious efforts to evade legal requirements. 
        Those cases require stronger tools of enforcement [.]''

    Please provide examples of what you believe is ``egregious'' 
behavior and what you view as the ``stronger tools of enforcement'' 
available to WHD.
    Do you expect to use, or increase the use of, WHD's discretionary 
suspension and debarment authority under the Service Contract Act or 
the Davis-Bacon Act to suspend or debar Federal contractors?
    Do you expect to use WHD's discretionary suspension and debarment 
authority under the Federal Acquisition Regulation to suspend or debar 
Federal contractors for Fair Labor Standards Act violations?
    Answer 2. Egregious cases arise where an employer is intentionally 
undertaking activities that are primarily motivated by an effort to 
avoid legal obligations under the FLSA as well as other workplace laws, 
rather than from a failure to understand responsibilities under the 
law. Because such actions can put an employer who is violating the law 
at a competitive advantage relative to responsible businesses, it is 
appropriate to use tools of enforcement to stop that behavior. This 
will have the effect of creating a level playing field based on 
compliance.
    I plan to review the use of different authority and interventions 
available to the Wage and Hour Division if confirmed as Wage and Hour 
Administrator. As in other responses to the committee, I would evaluate 
the efficacy of different intervention tools based on the severity of 
violations, the specifics of a particular case, and the efficacy of the 
tool in terms of improving compliance with the law.

    Question 3. Your name is listed in NELP's report, ``Just Pay: 
Improving Wage and Hour Enforcement at the United States Department of 
Labor'' as a member of the working group. I understand that this report 
recommends that the Wage and Hour Division ``provide guidance to 
investigators who are told by an employer that a complaining worker is 
an independent contractor'' and ``the guidance should note that a 
worker performing labor or services is presumed to be an employee 
absent employer proof to the contrary.''
    Do you agree with that recommendation?
    Answer 3. As an academic expert on workplace regulation and labor 
standards, I was asked to be a member of the working group in 2008. I 
agreed to do so and participated in a series of conference calls during 
2008 and 2009. We were asked to periodically read and comment on drafts 
of the report in discussions proceeded which I did. As a working group 
member, I provided comments on the report. We were not asked to support 
all recommendations in the report, but to provide our input regarding 
them. I did not agree with all of the recommendations included in the 
report at the time nor do I now.

    Question 4. If your nomination is confirmed, you will be in charge 
of over 1,800 employees at the Wage and Hour Division. Could you speak 
to your experience in management, and how you plan to effectively run 
this complex division?
    Answer 4. I believe that the experience I have from managing and 
supervising research, teaching and academic initiatives in the course 
of my work and the mediation and advisory work I have done in applied 
settings provides me with a set of skills that would be useful in 
leading the Wage and Hour Division effectively. In addition, my 
extensive experience in working with the agency, dating back to the 
Bush administration, provides me with a background and knowledge of the 
agency and an understanding of its operation that would allow me to hit 
the ground running if confirmed.
                           senator murkowski
     Question 1. If confirmed as Administrator of the Wage & Hour 
Division, U.S. Department of Labor (WHD), what will be your top 
priorities?
    Answer 1. My priorities would reflect the conditions facing the 
Wage and Hour Division going forward. I would be guided in thinking 
about those conditions by the principles I described in my Statement 
for the Record. Based on those principles, I would in the first few 
months of my service if confirmed, undertake a listening tour across 
the five regions making up the WHD. I would seek to understand what the 
career staff of the agency believes has been working well and what 
might be improved. I would also reach out to the WHD's stakeholders--
workers, businesses, worker advocates, business associations, and 
others--with a similar question. On the basis of this input and guided 
by the five principles, I would set clear priorities on how to best 
move forward in achieving the goals of the laws administered by the 
Wage and Hour Division.

    Question 2. Please describe any and all management and/or 
supervisory experience you have, including but not limited to number of 
persons you oversaw, size of department you were responsible for, 
specific management duties, term of position, etc.
    Answer 2. I acknowledge that I have never managed or led an 
organization the size of the Wage and Hour Division. But I strongly 
believe that my experience over the last 20 years of leading, managing, 
and supervising in my academic and applied work and my extensive 
knowledge and work with the Wage and Hour Division since 2002 prepares 
me well for the challenges I will face in leading the agency.
    In my 20 years as a professor, there has not been a time where I 
have not been leading and coordinating multiple projects, administering 
research grants and budgets, overseeing faculty colleagues, students, 
and staff on projects, and evaluating the performance of peers and 
subordinates. I have engaged in these activities at multiple research 
centers. The number of people I have managed has varied over time. At 
various times, I have had 18-20 researchers under my supervision and 
management. For example, in 2005, I had five professors, seven 
undergraduate researchers, three Ph.D. students, four staff members 
operating under my supervision between my research studies for the 
Department of Labor, and at Harvard University. I have also managed and 
supervised major teaching and administrative activities. A recent 
example is the redesign of our MBA curriculum where I led the design 
and implementation team over the last year consisting of 8 professors 
and instructors, 10 teaching assistants, and 5 staff members, and 
coordinated with a second design team of similar size.
    My research, teaching, and administrative activities have all 
involved hiring personnel, assessing performance, overseeing budgets, 
responding to staffing issues, relating to external funders and 
research partners and internal administrative units, and setting, 
monitoring, and delivering on project milestones and deadlines.

    Question 3. Please explain how your answer to question No. 2 above 
prepares you to serve as Administrator to manage and carry out the 
mission of the WHD.
    Answer 3. The Wage and Hour Division is fortunate to have an 
experienced and talented staff at the national, regional, and district-
levels. I would view a central part of my job to be providing overall 
leadership direction, working with the staff and stakeholders to create 
clear objectives and goals and gaining consensus about them, and then 
drawing on their expertise in implementation of new and existing 
directions and interacting with them on an ongoing basis. My experience 
with the agency and working relationship with many career staff members 
would be a foundation for quickly building this close working 
relationship.
    I have a strong set of skills and abilities from what I have done 
in my career that would facilitate the above. First, I have a unique 
perspective combining business administration and economics with a deep 
understanding of workplace policy. This provides me a framework for 
thinking about both the challenges facing the agency in improving 
compliance with laws and in thinking about leading and managing it. The 
fact that I have worked with the Wage and Hour Division since 2002 
means that these are not abstract ideas, but already reflect thinking 
about the particular issues facing the agency I would lead if 
confirmed.
    Second, my experience overseeing multiple projects with diverse 
groups of people has led me to develop managerial skills in clearly 
defining overall objectives, delegating tasks and activities, clearly 
articulating goals within those, and reviewing progress. I have 
experience in hiring and evaluating staff at various levels, creating 
operating plans, administering budgets, and undertaking planning 
reviews that would be directly applicable to my responsibilities as 
Wage and Hour Administrator if confirmed.
    Third, my mediation experience of the last 20 years has kept me in 
the middle of real world problems, and experience in dealing with 
sensitive, multi-party situations. It has taught me how to bring 
consensus among competing interests, in part by helping to articulate a 
common vision of objectives and then finding a pathway to reach them. 
Similarly, my advisory work with both Democratic and Republican 
government agencies in taking on complicated problems has shown me how 
to bring to bear my academic training with creatively dealing with 
complicated problems facing real world institutions.
    Finally, I bring energy, creativity, patience but also passion to 
leadership.

    Question 4. Have you ever filed or participated in the filing of a 
complaint alleging a violation of law enforced by the WHD? If yes, 
please explain, including your role and the outcome.
    Answer 4. No.

    Question 5. What prior experience do you have investigating 
complaints or other alleged violations enforced by the WHD for which 
you will be responsible for overseeing if confirmed as Administrator?
    Answer 5. Between 2002 and 2011, I worked on a series of major 
projects with the Wage and Hour Division. Those projects gave me a 
detailed understanding of the internal workings of the Wage and Hour 
Division at the district office, regional office, and national office 
levels. It has provided me the opportunity to talk with many 
investigators in the course of that work at a variety of offices. I 
have presented that research in a variety of meetings and offices of 
the Wage and Hour Division during the course of that time, allowing me 
to understand how investigations are undertaken as well as other 
administrative activities of the organization.

    Question 6. What prior experience do you have enforcing laws 
enforced by the WHD for which you will be responsible for overseeing if 
confirmed as Administrator?
    Answer 6. As noted in my answer to question 5, my work over an 8-
year period with the Wage and Hour Division under two administrations 
has provided me with a very detailed understanding of the operation of 
the division. It has also allowed me to get to know many of the 
talented career staff both in Washington and the field. This knowledge 
would allow me to hit the ground running in terms of understanding the 
basic operations of the WHD and a familiarity with many of those whom I 
would work.

    Question 7. You have made reference to several ``tools'' or a 
``tool box'' available to you to enforce the laws you would be 
responsible for enforcing if you are confirmed as Administrator of the 
WHD. Please describe, define, and identify with specificity what you 
mean by such ``tools'' and ``tool box.''
    Answer 7. The Wage and Hour Division is entrusted with a range of 
interventions that can be used to attain compliance with the laws it 
administers. The major tools include but are not limited to, providing 
information to employers and workers about their rights and 
responsibilities; providing educational outreach to the various parties 
regarding policies and programs, including using new, web-based tools 
of outreach; providing compliance assistance; and undertaking 
enforcement arising from both complaint and directed investigation. The 
responsibility of the Administrator is to set clear vision and 
procedures to enable the agency to choose the interventions most 
appropriate given the overall goal of improving compliance with the 
laws administered by WHD.

    Question 8. Based on your answer to question No. 7, if confirmed as 
Administrator, what tools are currently not available that you would 
like to make to available to the WHD and why?
    Answer 8. I do not have any thoughts about the need for tools not 
currently available to the Wage and Hour Division.

    Question 9. When and under what circumstances do you believe it is 
appropriate for the WHD to use strategic enforcement? Please be 
specific.

    Answer 9. Strategic enforcement describes a method of thinking 
about how to best achieve the objective of assuring compliance with the 
laws administered by the Wage and Hour Division given the limited 
resources available to it. It provides a framework for evaluating the 
appropriate methods of intervention, setting clear goals about what 
those interventions are to achieve, and, over time, evaluating the 
success in achieving outcomes given different interventions. It then 
requires adjusting policies in light of that experience. I would apply 
the idea of strategic management, a concept basic to private sector 
business, to lead and manage the Wage and Hour Division if confirmed.

    Question 10. When and under what circumstances do you believe it is 
appropriate for the WHD to use directed investigations? Please be 
specific.
    Answer 10. Directed investigations are an important complement to 
complaint investigations for the purposes of enforcement. They have 
been used as a means to assure that the Wage and Hour Division's 
resources are used in part where there is a likelihood of non-
compliance, based on objective sources of information. As in all 
activities of the agency, their impacts should be carefully evaluated 
as to whether they are improving compliance with the law and that they 
reflect changing conditions in terms of the relative severity of 
compliance problems across industries.

    [Whereupon, at 10:30 a.m., the hearing was adjourned.]

                                  [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
